<html>
<title> - OVERSIGHT HEARING ON OFFICE OF NATIONAL DRUG CONTROL POLICY ANTI-DRUG MEDIA CAMPAIGN</title>
<body><pre>[Senate Hearing 106-636]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-636

 OVERSIGHT HEARING ON OFFICE OF NATIONAL DRUG CONTROL POLICY ANTI-DRUG 
                             MEDIA CAMPAIGN

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
63-938 cc                    WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402






                     COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

            Subcommittee on Treasury and General Government

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman
RICHARD C. SHELBY, Alabama           BYRON L. DORGAN, North Dakota
JON KYL, Arizona                     BARBARA A. MIKULSKI, Maryland
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
  (ex officio)                         (ex officio)

                           Professional Staff

                          Patricia A. Raymond
                              Tammy Perrin
                              Lula Edwards
                        Chip Walgren (Minority)

                         Administrative Support

                 Elizabeth Blevins (Minority) <greek-l>
                           deg.C O N T E N T S

                              ----------                              
                                                                   Page

Opening remarks..................................................     1
Statement of Alan Levitt, Director, National Youth Anti-Drug 
  Media Campaign, Office of National Drug Control Policy, 
  Department of the Treasury.....................................     5
National Youth Anti-Drug Media Campaign..........................     5
Influencing youth................................................     6
Pro bono match...................................................     7
Other campaign components........................................     8
Examples of the match............................................     9
Media campaign impact............................................    10
Technical assistance.............................................    12
Credits towards pro bono match...................................    14
Scripts..........................................................    16
Entertainment industry...........................................    17
Public service obligation valve..................................    19
Prepared statement of Alan Levitt................................    20
Rationale for an Anti-drug media campaign........................    22
The influence of popular culture.................................    23
The media campaign's communication strategy......................    24
The media campaign & public law..................................    24
The media campaign's major non-governmental partners.............    25
The integrated nature of the National Youth Anti-Drug Media 
  Campaign.......................................................    28
The campaign's entertainment initiative..........................    31
The role of programming..........................................    33
The pro-bono match requirement...................................    34
Results of the anti-drug campaign................................    36
Youth attitudes and behavior have changed since the launch of the 
  National Youth Anti-Drug Media Campaign........................    37
Transparency of the media campaign...............................    38
Statement of Peggy Conlon, President, The Advertising Council, 
  Inc............................................................    39
    Prepared statement...........................................    40
Statement of Richard Bonnette, President, Partnership for Drug 
  Free America...................................................    41
    Prepared statement...........................................    44
Recommendations..................................................    46
Statement of Daniel Forbes, freelance writer.....................    49
    Prepared statement......................................59<greek-l>

                               (iii)

 
 OVERSIGHT HEARING ON OFFICE OF NATIONAL DRUG CONTROL POLICY ANTI-DRUG 
                             MEDIA CAMPAIGN

                              ----------                              


                       THURSDAY, FEBRUARY 3, 2000

                           U.S. Senate,    
               Subcommittee on Treasury and
                                General Government,
                               Committee on Appropriations,
                                                   Washington, D.C.
    The subcommittee met at 9:34 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell and Dorgan.


                            OPENING REMARKS


    Senator Campbell. The Treasury Appropriations Subcommittee 
will be in order. I would like to welcome everyone here today.
    Given the recent articles on the Office of National Drug 
Control Policy (ONDCP) media campaign, I and some of the other 
members of the committee have some serious concerns and I felt 
it was important for the committee to have an opportunity to 
look more closely at the campaign.
    An article in The Washington Post on January 14, 2000 
prompted me to hold this hearing. For those of you who have not 
seen the article, it discusses how the ONDCP is providing 
networks credit for running anti-drug messages. The article 
also touches on the issue of the Federal Government influencing 
the creative process, and that is also one of the things that 
we want to talk about today.
    I have to tell you right from the beginning, I think it is 
inappropriate that we have to find out in this committee, we 
who are elected to pass legislation and to oversee the budget, 
what is going on by reading it on the front page of a 
newspaper. By the same token, I do commend The Washington Post 
for bringing this to the attention of Congress.
    I have looked over some of the testimony that has already 
been turned in and the summary, and I have to tell you that I 
note with some interest that the ONDCP's summary implies that 
Congress was kind of a full partner in this, that we knew about 
it, that we had done hearings on it, and I totally reject that 
idea. I have been here 4 years. We have done no hearings on 
this, and in checking with Congressman Kolbe's staff, our House 
counterpart, they have done no hearings on it, either, although 
there was one slight sentence that kind of flew by in the 
process of doing another hearing.
    I also want to reject the idea that, in my view, the ONDCP 
was given legislative authority to enter into credit 
agreements. In their summary, they cite 21 U.S.C. section 1801. 
Well, I have looked it up and read everything from 1801 to 
1804, and that language does speak of a number of things, of 
contracts in lieu of contributions and things of that nature, 
in-kind contributions, I mean. There is nothing in here that 
say anything about credits that I can understand. It talks 
about the purchase of media time and space, the talent reuse 
payments, out-of-pocket advertising production costs, testing 
and evaluation of advertising, evaluation and effectiveness of 
media campaign, negotiated fees for winning bidders on request 
proposals, things of that nature.
    Under Paragraph (H), it does talk about the entertainment 
industry, collaborations to fashion anti-drug messages in 
motion pictures, television programs, popular music, 
interactive media projects, things of that nature, but at no 
time does it say that there would be any kind of quid pro quo 
agreements to trade credits for time. In fact, if you go 
through 1803 and 1804, in fact, in 1804, it does, under 
prohibitions, say that it is prohibited to supplant current 
anti-drug community-based coalitions and to supplant current 
pro bono public service time donated by national and local 
broadcasting networks.
    We put that in there. This committee put that in there 
because we were worried at the time, although all of us support 
a media campaign to reduce drug use by youngsters, that this 
huge amount of money, $1 billion in 5 years, could become a 
windfall for the media and, in fact, could end up supplanting 
what they were supposed to do anyway. It was not supposed to be 
a windfall. It was not supposed to be any kind of new added 
money that they could rely on in lieu of actually doing the 
advertising.
    As appropriators, we place the responsibility of ensuring 
that Federal funds are spent wisely and carefully. There are 
tough choices we have to continually face and many worthy 
projects were not funded when we were asked for the original 
money. We put a lot of money into this, as everybody here 
knows. In my myriad of notes, I have for fiscal year 1998, $195 
million; fiscal year 1999, $185 million; fiscal year 2000, $185 
million. That is a total so far of $565 million--$565 million--
and in order to be able to do that, because we do support a 
media campaign, we had to rob some other programs.
    We had to take money from other programs and they were very 
upset about us taking the money out of the program. We had 
budget caps in this committee, as all committees did. We had to 
live within those budget caps under the budget agreement and it 
was not easy to find the money to put into this program. When 
we have scarce dollars, we have to exercise stewardship, and I 
think everyone in this community knows that.
    We included the language. We worked very hard to make sure 
the campaign was a success. We also put a section in, if you 
will remember in those days a few years ago, that would require 
ONDCP to come back and give us some kind of verifiable 
information on whether the program was working, some type of 
measuring stick that we could use to justify further 
appropriations for it. We have gotten some numbers back, but we 
have not under the original agreement gotten the full study 
back, as you well know.
    I am most concerned that the ONDCP may be allowing the 
networks a way out of their contractual obligations to run the 
anti-drug ads. As I understand it, the networks could be 
getting credit for running anti-drug messages under the 
existing law that would have run anyway. Now, if the shoe is on 
the other foot, I am not sure that we would have been treated 
quite so well. But as I understand it, under this agreement, we 
pay them for ad space, then give them credits so that they can 
then sell the same ad space again to commercial advertisers. If 
that is not a windfall, I do not know what is. They are being 
paid twice. One of our first concerns when we went to bat for 
it was exactly that, and that is why we put the language in 
dealing with this issue.
    But let us go on. Today, we have Alan Levitt of the ONDCP, 
who runs the media campaign. I am hoping Mr. Levitt will be 
able to tell us about the current status of the campaign, and 
shed some light on how that program is running. I have not been 
able to find any kind of verifiable yardstick about how it is 
administered with some kind of cohesive answer. I would also 
like him to address the news articles and clarify exactly what 
is going on.
    We also have Peggy Conlon from the Ad Council, which 
provides us with a very unique perspective. The Ad Council is 
an organization which assists the nonprofit world in 
advertising marketing campaigns focused on social themes and 
attitudes, and I am hoping Ms. Conlon can provide us with some 
insight and information on how the public service ads, or the 
PSAs, as they are called, work in the commercial marketplace.
    With Ms. Conlon, we have Richard Bonnette, President of the 
Partnership for a Drug-Free America (PDFA). PDFA is an 
organization whose mission is to reduce the drug use in this 
country through media communication, and I certainly applaud 
their efforts. They have been involved in delivering anti-drug 
messages throughout the year, for over 10 years, in fact.
    This is not a question about who supports reducing teenage 
drug use. We all do, and we are not the bad guys here, but we 
have to account not only to our constituents but a lot of other 
people, too, about where the money is going. So, let us make 
sure that we are on the same page from that standpoint. We do 
not oppose the media campaign. We do not oppose spending money 
on reducing drug usage. But this, I think, although it may not 
violate the letter of the law, I think it violates the spirit 
of what we want to do.
    With that, we will proceed to the first witness. Oh, excuse 
me. I apologize. I would like to give Senator Dorgan, the 
ranking minority, an opportunity to speak to us.
    Senator Dorgan. Mr. Chairman, thank you very much. This is 
an interesting issue and, I think, an important issue. Last 
weekend at the Super Bowl, my understanding is that some 30-
second ads were sold for $2 million for a 30-second 
advertisement. Why? Why would anyone pay $2 million for a 30-
second advertisement on television? Because those who know 
these things know that advertisements on television are 
extraordinarily powerful. They affect a lot of things in this 
country, what people wear, what people purchase, what people 
drive, how people choose the airlines they fly. We know and the 
private sector knows that television is a powerful, powerful 
medium.
    Now, a decision was made by Congress to spend a substantial 
amount of money, $1 billion, on television advertising, trying 
to persuade young people not to take drugs and telling them of 
the dangers of taking drugs. That was an experiment of sorts. 
We have never done that before. We do not know the consequences 
of it. It is an experiment. But all of us embarked on that 
experiment together because we believed it was worth doing. We 
are in the process of trying to measure as we move along what 
effect, if any, this has had on drug use by young Americans.
    It probably was inevitable that in the context of an 
experiment like this, we would also run into some controversy. 
I do not diminish the controversy. I think it is important and 
something that we ought to understand and get to the bottom of.
    Recently, a magazine article, I believe authored by one of 
the witnesses that will appear this morning, Mr. Daniel Forbes, 
claimed that the Office of National Drug Control Policy lured 
the networks into an agreement to place anti-drug messages into 
regular network shows, and, in fact, there were scripts 
furnished and approved by a Federal agency and so on. It raised 
a lot of questions. There has been since that article denials 
and charges back and forth and a piece that I saw in the Wall 
Street Journal that said much is being made of little or 
nothing here. So there is a lot of controversy swirling about 
this.
    I agree with the chairman. I do not think the fact that 
there is some controversy raised ought to diminish the effort 
that is being made in this experiment that we are attempting, 
which I think is a very important experiment. But because these 
questions are raised, I think we ought to try to understand 
them and get to the bottom of them.
    Without at all diminishing Mr. Forbes, I would say that as 
someone who has been in public life for some long, long while, 
as has my colleague from Colorado, we know that there is from 
time to time a difference between a news article and the facts. 
I do not allege that is always the case. There are a lot of 
wonderful journalists and it is an honorable profession. But we 
need to understand, what are the facts? People see things 
differently, represent them differently. Let us try to sift 
through all this and understand what has happened and is what 
has happened here something that is countenanced by those of us 
in Congress who supported this program and do support this 
program.
    So I commend you, Mr. Chairman, for holding this hearing. I 
am anxious to hear the witnesses. I want this program to work. 
All of us have the same goals here. All of us want very much 
for our children to get the message that taking drugs is 
something that they should not do. It is bad for all Americans, 
and bad for children. So we want this to work, and I think this 
hearing is a step to try to understand what this controversy is 
about, to resolve it, and to move on. Mr. Chairman, thank you 
very much.
    Senator Campbell. I appreciate your comments, Mr. Dorgan. 
We have worked well together and certainly our interests are 
the same in trying to reduce drug use by our young people.
    With that, we will go to the first witness, Mr. Alan 
Levitt, the Director of the National Youth Anti-Drug Media 
Campaign. Mr. Levitt, if you would like to proceed.


STATEMENT OF ALAN LEVITT, DIRECTOR, NATIONAL YOUTH 
            ANTI-DRUG MEDIA CAMPAIGN, OFFICE OF 
            NATIONAL DRUG CONTROL POLICY, DEPARTMENT OF 
            THE TREASURY
    Mr. Levitt. Thank you. On behalf of ONDCP and Director 
McCaffrey, thank you for the chance to testify today about the 
National Youth----
    Senator Campbell. By the way, we did invite General 
McCaffrey to appear. He had a conflict, as you probably know.
    Mr. Levitt. He is at a prayer breakfast this morning.
    Chairman Campbell, Senator Dorgan, your bipartisan support 
of this campaign is very much appreciated. I have some opening 
remarks but respectfully request that my complete written 
testimony be submitted for the record.
    Senator Campbell. We have that on file.

                NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

    Mr. Levitt. We are indebted to Mr. Jim Burke and Dick 
Bonnette of the Partnership for a Drug-Free America, Dr. Alan 
Leshner and the National Institute of Drug Abuse, Major General 
Art Dean and the 5,000 Community Anti-Drug Coalitions of 
America, Peggy Conlon of the Ad Council, and Wally Snyder of 
the American Advertising Federation and the National 
Association of State Alcohol and Drug Abuse Directors. These 
are our key partners in the campaign. I would also like to 
recognize the members of the law enforcement community and 
other community organizations and public health organizations 
in this room today.
    Finally, I would like to recognize our advertising and 
communication partners. Tro Piliguian is the CEO of Ogilvy 
North America and is here. Ogilvy has just been voted the best 
ad agency on the East Coast by Ad Week, and Paul Johnson, the 
Regional President for Fleishman-Hillard, provides us with a 
world class communications team. Last month, Fleishman was 
named Agency of the Decade by Inside PR.
    A word about myself. I am a career civil servant. I spent 
the last 30 years of my career doing public education and media 
outreach efforts on such concepts as energy conservation, 
environmental protection, hunting and conservation, science, 
and substance abuse.
    Mr. Chairman, it is important to understand where the 
campaign began and the factors that precipitated it. To remind 
us all of the landscape in 1996 and 1997, there was more than a 
doubling of drug use among youth. The perceptions of harm was 
decreasing. There was a ``not in my backyard'' syndrome that 
this was a poor black inner-city problem.
    Congress recognized the seriousness of the situation and 
legislation was passed authorizing this campaign, a huge 
bipartisan commitment and historic public health communication 
initiative. We did not take this lightly. We spent 8 months 
developing a plan. We talked to over 200 experts and set up 
expert panels. We gathered the best and the brightest minds in 
behavioral science, advertising, communications, substance 
abuse, and research. We garnered the best practices of the 
public and private sectors and looked at very successful, not 
just consumer product marketing campaigns, but behavioral 
change programs that got people to wear seat belts, or use 
designated drivers, or conduct breast cancer awareness.
    What we developed was a strategy which we affectionately 
call the ``Burgundy Bible,'' which is the underpinnings of the 
entire campaign. All of our strategic messages and the 
rationale behind them are listed there. Simply put, it is a 
communications strategy which was broken down into message 
areas for both youth and parents and youth influential adults--
four for adults and four for youth. The strategy was based on 
what research and the experts told us. Everything we do in the 
campaign, everything we do in advertising, in programming, in 
the Internet is linked to one of these strategic messages.

    ----------------------------------------------------------------

    National Youth Anti-Drug Media Campaign Strategic Message Focus
Youth
  Norm Education
  Positive Consequences
  Negative Consequences
  Resistance Skills
Parents/Caregivers
  Perceptions of Harm
  Your Child at Risk
  Personal Efficacy
  Parenting Skills

    ----------------------------------------------------------------

                           INFLUENCING YOUTH

    The experts told us to communicate to the youth wherever 
they are. If you look at youth, of course, they are the center 
of their environment and they are not just influenced by ads. 
They are influenced by programming. They are influenced by the 
Internet, but also by coaches and the faith community and 
teachers and a whole variety of other influences in their 
culture, environment. We set out to try and change many of 
those, on the drug messages, on the information about drugs 
that were coming from those areas. The experts told us to go 
beyond advertising and get it down to the community level, and 
we have done that.
    This following chart sort of gives you an idea of how we 
approached the campaign, for one of the strategic messages on 
parenting skills. And you see we have paid advertising, public 
service advertising, a whole range of other techniques to 
change behavior.
    The campaign is structured in six components. Advertising, 
of course, is the most visible. More than 200 of the top ad 
agencies in the country work pro bono through the Partnership 
for a Drug-Free America to produce our ads. The pro bono match 
is one of the unique and most successful concepts of this 
campaign. For the advertising, last year, you mandated 100 
percent match in public service. The first year, it was our own 
negotiation tactics. These charts are also in your packet. You 
can see there are six ways we get to the environment of the 
children, and advertising is the biggest.
[GRAPHIC] [TIFF OMITTED] T13FE03S.000

                             PRO BONO MATCH

    The next chart talks a little bit about the pro bono match. 
You can see that for every 48 cents we are spending of taxpayer 
dollars, we are getting $1. We are spending 48 cents, we are 
getting ads--actually, it is even a better deal than that, 
because Ogilvy is the largest media buyer for broadcast media 
in this country, so they get a good deal just on their volume. 
But in addition to the Ogilvy rate, we get the pro bono match, 
which is almost equal to that, plus programming, plus a whole 
range of other kinds of in-kind contributions, like Websites 
and materials for schools and teachers.
[GRAPHIC] [TIFF OMITTED] T13FE03S.001

                       OTHER CAMPAIGN COMPONENTS

    Not as visible, but no less important, are the other 
components of the campaign, including the Internet, which is 
the fastest-growing area of influence for adolescents, second 
only in influence to television with respect to where youth get 
their information. Over 10 million youth and parents have 
visited our Websites. We are about to launch Websites in six 
other languages, including Spanish and five Asian languages.
    These are for parents.
    The entertainment industry, although we are spending about 
$1.5 million to do the outreach to the entertainment industry, 
is probably the most highly leveraged and effective component 
and of our efforts. We provide technical assistance to writers 
and producers. A lot of that information comes directly from 
the National Institute of Drug Abuse, where we are spending 
over half-a-billion dollars a year to find out more about drugs 
and behavior issues with kids.
    We also do a whole variety of technical briefings and 
outreach to the creative community. Most recently, we have done 
one on sex, drugs, and teens in partnership with the Campaign 
to Prevent Teen Pregnancy. We had about 20 writers and 
producers attending that in New York. This was in December.
    We have public education and news media outreach, which 
have contributed more than 400 million other impressions about 
the drug issue in magazines and newspapers across the country. 
One of the efforts we have done with the New York Times is an 
anti-drug teachers' guide. This was part of a pro bono match. 
We have almost 100 other partnerships with groups like the 
YMCA, which has just instituted its first after-school program 
with a drug prevention component for middle-school youth. The 
Future Farmers of America, the largest youth organization in 
the country, has a writing contest about drugs.

    ----------------------------------------------------------------

         National Youth Anti-Drug Media Campaign Pro Bono Match
    Public health organizations with drug-related public service 
messages benefit from match:
  --265,000 TV and radio time slots
  --168 million Internet impressions
100 Black Men
Alanon/Alateen
American Symphony Orchestra League
America's Promise
Big Brothers Big Sisters of America
Boys and Girls Club
Boys Town USA
Center for Juvenile and Criminal Justice/Justice Policy Institute
Center for Substance Abuse Prevention/Health and Human Services
Center for Substance Abuse Treatment/Health and Human Services
Centers for Disease Control
Connect for Kids (The Benton Foundation)
Country Music Association
Do Good, Mentor a Child/Save the Children USA
Drunk Driving Prevention/U.S. Department of Transportation
Education Excellence Partnership
Educational Testing Service
Girl Scouts of the USA
Give a Kid a Hand/International Advertising Association
Harvard Mentoring Project
Health and Human Services/Substance Abuse and Mental Health Services 
Admin.
Hepatitis Foundation International
Kids Peace
Mentoring USA
Mothers Against Drunk Driving
National Action Council of Minority Engineers
National Committee to Prevent Child Abuse
National Council of Teachers of Mathematics
National Council on Alcohol and Drug Dependency, Inc.
National Crime Prevention Coalition
National Fatherhood Initiative
National 4H Council
National Inhalant Prevention Coalition
National Institute on Drug Abuse
Parental Responsibility/Department of Health and Human Services
Parents at First Teachers/El Valor
Partnership for a Drug-Free America
President's Council on Physical Fitness and Sports
Points of Light Foundation
Prevent Child Abuse America
Recording Artists, Actors and Athletes Against Drunk Driving/Department 
of Transportation
Talking with Kids about Tough Issues (Children Now/Kaiser Family Fnd)
The Reiner Foundation/Families and Work Institute (Early Childhood Dev)
YMCA

    ----------------------------------------------------------------

                         EXAMPLES OF THE MATCH

    I would like to submit for the record about a half-a-dozen 
letters and other materials from outside organizations.
    Senator Campbell. Without objection, that will be included.
    Mr. Levitt. Mr. Chairman, I would also like to show now two 
different approaches to fulfilling the pro bono match. The 
first is two public service announcements. We have gotten 
265,000 radio and TV public service time slots that we have 
given away to 45 different organizations. You should also have 
this in your packet. That is done through a process with the Ad 
Council, and I will just show two of these right now.
    [A videotape was played.]
    Senator Campbell. I might mention, Mr. Levitt, I do not 
think anyone on the committee has any problem with that type of 
ad. We all know it is an ad, probably very effective. It is 
measurable. That is not subliminal.
    Go ahead and proceed.
    Mr. Levitt. I think Peggy Conlon will talk a little bit 
more about these ads and that process, but I would like to show 
now some examples of the television programming that we have 
credited in the pro bono match.
    [A videotape was played.]

                         MEDIA CAMPAIGN IMPACT

    Mr. Levitt. Senator Campbell, the most important news about 
the campaign is that it is working. We are already seeing 
changes and reported many of the results to this committee in 
the last year. The number of parents who have had discussions 
with their kids about drugs has increased from 44 to 57 
percent. The percentage of teens exposed to anti-drug messages 
every day has increased 41 percent. And in the last year, the 
percentage of teens who strongly agree that cool people do not 
smoke marijuana rose by 14 percent.
    There has also been a tremendous impact in the prevention 
community. Just at the National Clearinghouse for Alcohol and 
Drug Information, there has been almost a three-fold increase 
in calls for anti-drug information, and many of the anti-drug 
coalitions at community levels have experienced a three- or 
four-fold increase in phone calls. The Ad Council is also 
helping us in one of our campaigns to promote the concept of 
community anti-drug coalitions.
    Mr. Chairman, I would like to take this opportunity to set 
the record straight about some misinformation contained in some 
of the inaccurate press reports that you have referred to. I 
can understand your concern. The reports were very alarming, 
and I think many of them are quoting people who have no 
understanding of this campaign. People who are involved in this 
campaign do not see in any way that we are intruding on their 
creative freedom.
    Taken out of context by reporters and others not familiar 
with the campaign, the story attracted press attention 
throughout the country. There were unfounded allegations of 
attacks on the First Amendment, ``Big Brother,'' and 
nonexistence conspiracies involving the Government and the 
networks. Nothing could be further from the truth.
    This is the most public and open communications campaign in 
the history of this country. We believe it is a matter of 
public law. Our appropriations and authorization language, we 
believe, gives us as we interpret it, a mandate for this. We 
have been very clear in all of our contracts, in all of the 
briefings to other Congressional staff and to this 
subcommittee. This is the fourth committee to whom we have 
talked about the pro bono match. Articles have been on the 
front page of the Los Angeles Times over 1 year ago, in 1998. 
We had articles in Variety and in USA Today that have talked 
about this. We have not done this in secret.
    We are doing it because it is the way you change behavior. 
There are about 70 organizations in this country that actively 
lobby the entertainment industry from one issue or another to 
change programming. Every single one of these organizations, if 
you give them the choice of having ads or programming, would 
take programming, hands down, because that is what the experts 
tell us. You need that in addition to advertisements and the 
other channels of communication.
    We have had a GAO audit where we have shared this 
information for the last year, and the pro bono match credit 
for programming has been mentioned in two Presidential press 
conferences in the last year.
    Mr. Chairman, the campaign is reaching millions of parents 
and kids every week with the truth about drugs. Thousands of 
partners are signing on as well as communities across the 
nation. I am honored to have devoted the last 4 years or 3 
years of my life to this campaign and to see the progress that 
we have collectively made.
    The authorization of this campaign was a bipartisan 
demonstration of the national will to get at this problem, 
youth drug use. You gave us the resources and we jumped on it 
with both feet. Drug use is going down in this country. By any 
measure, this is the ``gold standard'' of public communication 
programs. It was planned by the experts, it is being 
implemented by the experts, and it is being evaluated by the 
National Institute of Drug Abuse and the Annenberg School of 
Communications, through the most prestigious institutions in 
the country.
    It is also recognized as a model in the public health 
community. In May, it will be in an article in the Journal of 
Public Health Management and in the Public Health 
Communications Journal. Over 25 other nations have sought our 
advice and dozens of cities and States are looking into the 
same kinds of programs, not to mention other Federal agencies.
    Again, the Media Campaign is working. We have 4 million 
chronically addicted people in this country and we are working 
to stop that from growing, and in the long run, ultimately 
reduce it.
    I will be happy to answer any of your questions.
    Senator Campbell. Thank you for your comments. First, I 
would point out to you that we have no problem with all of the 
agencies you mentioned that support the efforts of reducing 
drugs. That is not the question. None of those agencies are 
responsible for protecting the taxpayers' dollar.
    Also, there is no question, as you mentioned, it does 
change behavior. I am sure it changes behavior. That is not the 
question, either. I think the question is the propriety of how 
we change behavior.
    About 30 years ago, one of our largest manufacturers of 
soft drinks tried some experiments in the developmental days of 
TV in which they inserted subliminal ads to drink their 
product, and they found that, in fact, if they would put that 
in the different frames of the film, drink this product, that, 
in fact, the purchase of the product did go up. See, we know 
you can influence behavior. That is the basis of all 
advertising, whether you buy a Ford over Chevrolet or a certain 
kind of toothpaste over another kind of toothpaste. We know we 
can influence behavior. I mean, political campaigns influence 
behavior. The question is how we go about doing it, and I think 
that is one of the things we need to get to.
    Let me ask you some questions. First of all, some of these 
programs are late at night and we are trying to get to 
youngsters 8 years old to 12 years old. That is one of the big 
areas. How many youngsters are watching late-night programs? Do 
you have any information on that?
    Mr. Levitt. Well, I can provide it for the record, of 
course. We rely on the experts who do this for a living.
    [The information follows:]

    Of course, very few children watch any late night television, which 
runs from 11:00 p.m. to 1:00 a.m. Appropriately, ONDCP is currently not 
running advertising in any late night programming on network 
television, nor have we credited network late night programming in our 
pro bono match valuing process.
    Prime time programming airs from 8 p.m. to 11 p.m. Monday through 
Saturday and 7 p.m. to 11 p.m. on Sunday. Advertising time is purchased 
for ONDCP in these programs, during these time periods, to reach both 
our parents target and our youth target. Networks such as the WB and 
Fox air prime time programs that appeal to the younger age groups. 
ODNCP purchases advertising in these shows (such as ``Buffy the Vampire 
Slayer,'' ``The Simpsons,'' and ``Dawson's Creek) and airs youth 
targeted advertising/commercials.
    ONDCP advertising also airs in programs such as ``NYPD Blue'' in 
which time is purchased to reach parents and other youth influencers. 
Advertising that is directed to parents is what we schedule to air in 
these adult-targeted programs.

    Mr. Levitt. Ogilvy operates about a $16 billion a year 
business. What they do is buy eyeballs and ears, and they know 
when the kids are watching and where they are watching. Ogilvy 
is the organization that guides us in putting ads on different 
programs or which----
    Senator Campbell. Let me ask you something else. When Bill 
Cosby made the comment and there was a number you should call, 
I understand that. Anybody can understand that. That is easy to 
understand. But are these youngsters, the younger ones, 
particularly, are they sophisticated enough to understand 
messages that are in the script, particularly when there is 
taped-in laughter and jokes going on, as there was with a 
couple of those? Is that a serious message that they would 
understand, as a paid ad would be?

                          TECHNICAL ASSISTANCE

    Mr. Levitt. The researchers and the people who are advising 
us say that often that is more effective than an ad because it 
has context. It may have the kids' favorite character. There is 
a plot line. It may last for more than one episode. We think 
that this is one of the most effective things that we could do. 
It is the way that a network can contribute the most to this 
campaign. We could buy ads, but if you are going to the 
bathroom or getting something to eat when an ad is on, you are 
not going to see it. You are going to watch that program.
    Senator Campbell. Let us get to some of the scripts. I also 
want to ask you about how these agreements were reached. As I 
read our notes, according to officials of several networks, 
their scripts were not reviewed. If the scripts were not 
reviewed, how do you arrive at some type of a monetary figure 
about the trade for credits if you do not review the scripts?
    There has been a lot of talk about the scripts. I 
understand for a while that some were being turned in to be 
reviewed beforehand. After this was broken in the news, it was 
changed and now scripts are reviewed only afterwards. If it was 
a good idea to review the scripts before, my question would be, 
why did you change it so you do not review them before now, and 
if it was not a good idea to review the scripts at all, if 
there is some kind of First Amendment problem, why were you 
reviewing any scripts?
    Mr. Levitt. There are two processes that got confused, and 
in no instance was there any coercion in any way or requirement 
for anybody to send a script. This was a purely voluntary 
thing.
    Let me just step back for a second and tell you how these 
are negotiated. When Ogilvy, which is our current media buyer, 
negotiates with a network, they say, for example, we want to 
buy x million dollars on your network. The network will come 
back and propose how they are going to fulfill their public 
service obligation. Fifty percent or more must be in time and 
space. It is running about 85 percent, but the only requirement 
we have is that 50 percent or more of their public service 
obligation must be in media time and space.
    The rest could be in any one of a number of activities that 
the Government finds useful. AOL and Disney, for example, 
created Websites last year, wonderful Websites. The New York 
Times may do a teachers' guide. Others will do other community 
programs or a public affairs show. We need a way to quantify 
it. The time slots are the easiest way to quantify it.
    Let us go to the criteria. The Ad Council established some 
criteria for the pro bono match. These are the areas that we 
are supporting in the pro bono match, the nine areas, promoting 
effective parenting practices, among others. So either the 
public service messages or the programs must----

    ----------------------------------------------------------------

              Pro Bono Match: 9 Criteria for Qualification
    Public Service Messages or Programming that:
  --Promote effective parenting practices.
  --Foster greater parent/caregiver involvement and develop effective 
        drug-prevention strategies.
  --Strengthen parent-child relationship through early childhood 
        development programs.
  --Support in- and after-school youth programs and services.
  --Enhance high expectations and self-esteem in youth.
  --Prevent drug abuse including underage tobacco or alcohol use.
  --Highlight nexus of drugs and crime and violence.
  --Illustrate connection between substance use and AIDS.
  --Develop other drug information-related messages.

                Developed with The Advertising Council, March 1998.

    ----------------------------------------------------------------

    Senator Campbell. I do not want to get too far outfield 
because we support most of this, if not all of it. I have said 
that. Senator Dorgan has said that, too. The question is, how 
are we arriving at this.
    Mr. Levitt. What we----
    Senator Campbell. As I understand, you believe that the 
chance of millions of dollars of windfall money would not 
influence them to change a script?
    Mr. Levitt. I do not think so.
    Senator Campbell. According to one of the producers of CBS, 
although no one from your office asked them to change the 
script, they were, in fact, leaned on to change the script by 
some of their own officials, and I can only assume that it was 
because they saw an opportunity to make millions of windfall 
dollars.
    Mr. Levitt. I am not aware of that, sir, but let me explain 
the process----
    Senator Campbell. I must tell you that the intent of 
Congress and this committee was that the money, 100 percent of 
the money, would go to paid advertising. Continue.
    Mr. Levitt. I understand that. Long before this media 
campaign was in existence, we provided technical assistance and 
sometimes script review assistance for the entertainment 
industry.
    Senator Campbell. At their request?
    Mr. Levitt. Always at their request, always. What we have 
been able to do with this campaign is accelerate that and 
increase it. We have, for example, media briefings planned to 
the entertainment industry on the subjects of children of 
substance abusers, on inhalants, and on designer drugs. We have 
workshops for writers of medical shows. What we have are panels 
of experts from the Federal Government in other areas that come 
to Hollywood or New York and make presentations and answer 
questions to writers who are interested in these subjects. The 
subjects are or are not woven into their scripts.
    We also make ourselves available by the telephone. Our 
Deputy Director, Dr. Don Vereen, for example, has consulted for 
``ER'' on numerous occasions. It is a phone call. For example, 
``Can you tell me, how a 16-year-old girl would react to 
Rohypnol?'' or, Can you refer to me an addicted physician that 
I may want to interview for my show, get some background 
information?''

                     CREDITS TOWARDS PRO BONO MATCH

    Senator Campbell. Is the committee to understand, what you 
are saying is that the networks seek you out to get advice on 
the scripts and you do not offer the credits beforehand?
    Mr. Levitt. Not at all. Not at all. No credits are offered.
    Senator Campbell. How do they know about the credits?
    Mr. Levitt. The business office knows about the credits 
because that is part of the negotiation with Ogilvy, okay, two 
separate processes. So the technical assistance has preceded 
this campaign and we are basically giving the information that 
the Federal Government has learned from its billions of dollars 
of research on drugs, alcohol, and tobacco and other youth 
issues, and that will continue, and there is no prostletyzing. 
It is purely voluntary. ABC has set up a briefing of their 
prime time writers and executives and----
    Senator Campbell. All right. So if there is nothing wrong 
with that, they come to you and you review the scripts----
    Mr. Levitt. Right.
    Senator Campbell. Is it our understanding that you just 
recently changed your method of operation so that you only 
review them afterwards instead of before they air?
    Mr. Levitt. For the purpose of pro bono match credit, we 
always reviewed them afterwards. At least, we thought that we 
were always reviewing them afterwards. In most instances, it 
was a completed script or a tape. In a few instances, as we 
learned during this controversy, some of the scripts that were 
sent to us for review to see if they were on our message 
strategies and to get credit for the public service obligations 
were, in fact, scripts that had not yet been aired.
    But in no instance, in no instance did anybody associated 
with ONDCP or our contractors, after that script was reviewed 
for compliance or if it met these areas, was that information 
transferred back to the network to change the match, to get 
them to do something.
    Senator Campbell. Let me ask one more question, and then go 
back to Senator Dorgan for his question.
    Mr. Levitt. It would go back to the----
    Senator Campbell. If the scripts were not reviewed before, 
how did you arrive at a monetary figure for the value of the 
credits?
    Mr. Levitt. The scripts or the completed programs were sent 
to us to see if they would be eligible for a credit. It was 
either yes and here is how much it is worth, because Ogilvy 
would value it, or no.
    Senator Campbell. I understand also from my notes, one of 
the network officials said, and I quote, ``all the shows we put 
on, we were going to do anyway.'' I believe that was the ``Home 
Improvement'' show, if I am not mistaken, but I may be 
mistaken. But if they were going to do them anyway, and I 
commend them for doing them, if they were going to do them 
anyway, then why would we be offering them credits to do what 
they were going to do anyway?
    Mr. Levitt. Our intention is to reward both the development 
and the airing of anti-drug messages. We want to encourage the 
networks to continue to do this. I think one of the most 
unfortunate parts of this last storm of stories is that the 
networks have done a wonderful job in the last year, and that 
has gone unrecognized like there is something nefarious about 
it. These writers have hundreds of hours of programming to 
develop every year and they need story lines and they want, 
they thirst for accurate information. This is entertainment, 
and this is----
    Senator Campbell. We are on the same wavelength with that, 
Mr. Levitt. I mean, I commend the networks for--they are 
Americans, too. I am sure they want to see a reduction in drug 
use, too. We do not have a problem with that. Certainly, 
anything they do from the standpoint of offering time or 
adjusting scripts, if they do that on their own, that is one 
thing.
    Let me go to Senator Dorgan. I do not mean to monopolize 
the time, Senator.
    Senator Dorgan. Mr. Chairman, I have spent a lot of time 
over recent years trying to embarrass or bludgeon or in other 
ways affect networks from programming decisions that send 
increasing amounts of violence into our living rooms on 
television programming. I have been fairly out front about 
that. I think there is a lot of trash on television and some 
wonderful things, as well, but television is excessively 
violent, and I have certainly tried to alter that.
    Children by the time they graduate from high school have 
spent about 12,500 hours sitting in a classroom and about 
20,000 hours watching television, so they are much more a 
product of what they have seen than what they have read. As I 
watched some of these messages I think it is fine to have a 
program that provides a good message to young people in this 
country. I think that is a good thing to do.
    But let me just make another point here. I mentioned Mr. 
Forbes saying that that which is reported is not always 
accurate. I know that for a fact, and so does Mr. Campbell. On 
the other hand, often, investigative reporting provides us with 
information we have not previously known and it provides a very 
useful service in our country.
    Let me try to get to the nub of what I think Mr. Forbes was 
saying. His article, and we will hear him testify today, but 
his article was very assertive, and at the start of his 
article, he wrote that few Americans would know of a hidden 
Government effort to shoehorn anti-drug messages into the most 
pervasive and powerful billboard of all, network television 
programming, and his point was that networks were getting 
monetary credit for that, part of the money that we were, in 
effect, appropriating was being given to the networks in the 
form of financial credit for doing something that I think I 
just heard you say the networks were going to do anyway.
    But I want to have you answer a couple things, because I 
think it is important. I think it does raise real serious 
questions about the Government's role here if, in fact, scripts 
for television programs are sent to the Government to be 
perused to determine, are these appropriate scripts? If we do 
it this way, can you pay us? Can we get credit? I mean, 
clearly, Mr. Forbes is right. That raises a lot of questions.
    And there have been some statements since this controversy 
developed that suggest that some scripts were provided by, and 
let me give you an example of that. One ABC executive, 
apparently ABC executives, plural, said that ONDCP asked them 
to start submitting scripts of TV shows before they aired in 
order to be considered for an anti-drug ad swap. Can you 
respond to that? I mean, if that is the case, that is 
troublesome.

                                SCRIPTS

    Mr. Levitt. There are three things. First of all, Director 
McCaffrey has clarified the policy and made one change in it. 
That is, we will no longer do any of the review of the scripts 
within ONDCP. That is going to be done at Ogilvy and through 
our behavioral change panel or with the National Institute of 
Drug Abuse and other experts. It will be removed from our 
office completely, and it will only be done after the program 
has aired. So it is not, in essence, going to affect the pro 
bono program because we never changed scripts when they came in 
for vetting initially.
    With respect to the issue of ABC, this happened during May 
of 1999. We had about a dozen--it was about $7 billion or $6 to 
$7 billion worth of advertising that sold in the May-June up-
front period. We had about a dozen or two dozen meetings over a 
2- or 3-day period in New York to brief other networks about 
the media campaign. No other network got that misunderstanding. 
I do believe there was a miscommunication, because we talked 
about the pro bono match. We also talked about providing 
technical assistance and doing creative briefings, and I think 
that issue became confused in it, and we have since provided 
clarification.
    Senator Dorgan. Let me ask you, though, would you not agree 
with Mr. Forbes, as tough as his article was, and I know you 
allege that some of it is not factual, but would you not agree 
that if, in fact, scripts were sent to the Office of Drug 
Policy prior to the airing of a program for the Drug Policy 
Office to review them. It just raises all kinds of questions of 
the type that Mr. Forbes raised----
    Mr. Levitt. I could understand how people could get that 
impression, if they were not familiar with the process.
    Senator Dorgan. And you understand, I think, from the two 
of us, we would not want, and I think most Members of Congress 
would agree with us, we would not want a circumstance here 
where we decide, we are going to have a $1 billion campaign to 
purchase advertising on television in many different ways to 
persuade young Americans not to take drugs. We would not want 
that to become a program in which there are, in addition to 
advertisements being aired, there are connections between the 
Office of Drug Policy and producers and television networks 
about what the American people are going to see in network 
programming.
    I mean, frankly, in terms of your influence on network 
programming, I assume if there is a network that is going to 
put on a batch of prime time shows that glorify drug use and 
never show the consequences of drug use and so on, that you 
would probably want to ask, we will not advertise on that 
network. I mean, if a network has an entire menu of shows that 
glorify drug use, I assume you would not want to be advertising 
a lot. Would that be a fair statement?
    Mr. Levitt. Again, what I tell people when they call me to 
ask, will you buy on my station, I say, you would not want a 
bureaucrat making that decision. We allow the people who do 
that for a living, who are trying to reach the target 
audiences, to make those recommendations to us, and very rarely 
do we disagree with them.
    Senator Dorgan. You want to persuade networks to do better 
in terms of the message they are sending to young Americans 
about drug use. I understand that, and there is nothing wrong 
with that. I think that is a goal all of us share. I think that 
one of the questions that has been raised that is legitimate is 
the issue of sharing scripts and so on.
    Mr. Levitt. Senator Dorgan?
    Senator Dorgan. Yes?

                         ENTERTAINMENT INDUSTRY

    Mr. Levitt. You mentioned about shoe-horning scripts, shoe-
horning messages. The creative--you just cannot do that in the 
creative community. You cannot shoehorn a message where it does 
not belong. It will mess up the script. The audience ratings 
will go down. And the creative community is very sensitive to 
that, and our approach to the entertainment industry is that 
they are part of the solution, they are not part of the 
problem. I know that Congress and other people have banged on 
the entertainment industry for violence and for sex. Our 
approach is, we educate them to youth drug use issues, and they 
have been very responsive. Those programs are a good example.
    Senator Campbell. If I might interject, Senator, since the 
networks, know what it takes to get a credit, that in itself 
becomes a form of subtle suggestion, if not pressure, because 
if they do not get the credit, they do not have the ability to 
get the money and resell the space to get paid again for it, in 
my view.
    Mr. Levitt. Well, I know that you have a letter from the 
executive producer of ``Beverly Hills 90210'' that addresses 
that very issue, and he does not feel in any way that we have 
influenced his programming or that we could influence his 
programming through that kind of effort.
    Senator Campbell. Excuse me for interrupting.
    Senator Dorgan. I do not think any of us ought to suggest 
that it is inappropriate for us to be able to see on television 
a better fare of programming. I mean, to suggest to children 
that the way adults solve their problems is to slug each other 
and stab each other and shoot each other, which we have 
routinely done for 20 years, is not a very appropriate thing, 
and if we can improve all of that in the violence area, I want 
to do that.
    On the other hand, dealing with violence and drugs and 
other issues, the questions that are raised about an 
advertising campaign in which we have direct influence about 
what we put on the 30-second ads and then presumably some other 
influence about the kind of credits people are given for 
messages put in the programs, I understand why it raises 
questions and I bet you do, as well, just because that is an 
entirely new field.
    No one, I think, no one wants to have an office in 
Washington saying, here is the content of a sit-com that is 
going to be aired on Wednesday night by this network. That is 
not the job of Government. Government should not ever do that. 
I mean, that is not the way this works, could work, or should 
work, and I do not think any of us who have appropriated money 
for this program anticipated that.
    So I think we should think through a little bit this issue 
of credits, to understand more about how that is used and is 
the use of credits, in fact, supplanting other pro bono efforts 
that we should be getting from the networks in any event for 
anti-drug advertising, not programming, but advertising.
    Mr. Levitt. I think Advertising Age pointed to this 
program, the pro bono match component, as one of the causes of 
increased, what they call clutter--clutter is anything other 
than programs--because we have had about 5,000 local and 
network public service ads in prime time in the last year, and 
that is an increase. Look at the list of organizations that you 
have. A lot of those messages are getting out there that would 
never have gotten out before.
    Senator Dorgan. Let me just finish by saying I sort of feel 
the same way that Senator Campbell does. I was not aware of how 
the credit system worked or, in fact, that the credit system 
existed. Now, I do not know whether it was hard to have picked 
out of what was coming from the Office of National Drug Control 
Policy, but I think it raises some questions that we need to 
think through with you and resolve, because I think the 
questions raised by the critics are reasonable questions. We do 
not want scripts moving back and forth between those that 
produce television programs and those in Washington who have a 
very large amount of money with which to pay for advertising 
and, therefore, credit people who are doing script production.
    But let me finish by saying this. I do not think we should 
allow these questions, which I think are reasonable questions 
to ask, to tarnish an effort that I think is a pretty 
reasonable effort. People advertise on television and pay 
mountains to do it because it works, and I think that the 
experiment that we have begun is a worthwhile experiment, to 
see if we can package an effort to send messages through 
advertising on television to young Americans about drug use.
    I hope that, even as we have a kind of a dust-up about 
these issues, that it does not detract from the central mission 
here. This is an experiment that I think can work, and I think 
at least initial evidence suggests is working. So let us 
address and fix some of the issues that develop, but let us not 
back away from an experiment that I think has great potential 
to steer some young children in this country away from a life 
of drugs.
    Senator Campbell. I certainly agree with Senator Dorgan. 
Ads work. Subliminal also works. The question is not whether 
they work or not. I think everybody knows they work. The 
question is whether it is ethical to use those or not.
    But let me ask you a final couple of questions. We have 
received different numbers about how much money was actually 
expended in these credits. I have seen the number $2.5 million 
up to $22 million. So far, what is the dollar value of the 
credits that you have given?

                    PUBLIC SERVICE OBLIGATION VALVE

    Mr. Levitt. Nothing was expended, sir. These are--this is 
part of the public service obligation that the networks have in 
return for the buy. The figure is $21.8 million in television 
programming so far, 130 different episodes of shows, I think it 
is 39 different programs.
    Senator Dorgan. Can I just add?
    Senator Campbell. Yes.
    Senator Dorgan. The ``Home Improvement'' show that you put 
up here, can you tell us how it works that they got credit for 
that, and were you aware that program was going to run before 
it ran? Did you see a script?
    Mr. Levitt. No, we never did. In all of those, we never saw 
anything until after it ran, except ``The Wayans Brothers.''
    Senator Dorgan. So who determined after ``Home 
Improvement'' played--that it had a very significant anti-drug 
message--who determined after that program played that that 
network got a certain credit, and if so, how much?
    Mr. Levitt. Their sales department would send the script to 
Ogilvy and Ogilvy would send it to us and say, is this on 
strategy or not? I have two charts here, about the old system 
and the new system. I think General McCaffrey has significantly 
clarified it and we will no longer be involved in viewing in 
any way, even after the fact, scripts or tapes. That will be 
done at our contractor's office, and they will only be done 
after they have played.
    Look, I am very sensitive to the First Amendment. I 
participated in the free speech movement in Berkeley in 1965. 
But the first time I was offered drugs, I was 19. My daughter 
was 12 in Chevy Chase when she was offered LSD and marijuana. 
That is the difference between when I was a kid and now. This 
is what we are trying to do. We are trying to keep kids off 
drugs.
    I think that we may not have communicated as clearly as we 
can. We think we have communicated in many venues with the 
Congress and with TV and the entertainment industry. It is a 
very complicated program. Everybody does not understand every 
aspect of it. I think the people who are involved in this, the 
people who got credits or people who have helped in another way 
the technical assistance process, did not feel any pressure. It 
would be the antithesis of what we wanted if the creative 
community felt pressure to change because of the financial 
incentive.
    Senator Campbell. We have a vote on and we are going to 
take a break in a couple minutes. Let me just ask you one last 
thing. If we are not actually spending money on the ads and we 
are appropriating this amount, why do you need it? If you work 
some pro bono----
    Mr. Levitt. Pardon me?
    Senator Campbell. If you work some agreement to give them 
credit for it and you are not actually spending the money on 
it, why do you need the money? I mean, why should we not just 
reduce the amount? We have a lot of other places we can put the 
money.
    Mr. Levitt. Because the value far, far exceeds the value of 
the ads. A Bill Cosby episode like that or an ad or ``Home 
Improvement,'' that has enormous impact on youth and parents, 
and that is exactly what we want to do.
    Senator Campbell. One last question before we run, and then 
we will go to the next witnesses when we return. If the 
networks sold the time under this credit arrangement, did they 
sell it for a higher amount than what ONDCP would have paid for 
the ad, or do you know?
    Mr. Levitt. I have no idea.
    Senator Campbell. You do not know.
    Mr. Levitt. The networks are giving us what we want. This 
is the most valued part. If you ask ten organizations that are 
lobbying to change programming or social issues, the depiction 
of this issue or the understanding of that health issue, would 
they rather have ads or programming, ten out of ten would say, 
I would rather have programming. It is the most effective use.
    Senator Campbell. Mr. Levitt, I appreciate you appearing 
here.
    [The statement follows:]

                   Prepared Statement of Alan Levitt

                              INTRODUCTION
    Office of National Drug Control Policy Director Barry McCaffrey 
thanks the Committee for the opportunity to have me testify today about 
the National Youth Anti-Drug Media Campaign. This campaign is an 
integrated youth and adult marketing and public-health communications 
effort to reach American audiences with traditional and modern 
communication strategies to influence attitudes and action regarding 
drug use.
    Chairman Campbell, Senator Dorgan, distinguished members of the 
subcommittee, your interest in all aspects of drug control policy and 
your commitment to bipartisan support of the National Drug Control 
Strategy's number one goal--to Educate and enable America's youth to 
reject illegal drugs as well as alcohol and tobacco--are much 
appreciated. We welcome this opportunity to explain important aspects 
of the National Youth Anti-Drug Media Campaign and to urge you to 
continue supporting its science and research-based communication 
strategy.
    I would like to recognize several individuals and organizations 
that have played important roles in shaping and conducting this vital 
drug-prevention campaign. We are all indebted to Mr. Jim Burke and the 
Partnership for a Drug Free America. The Partnership has been our lead 
partner in implementing the campaign. The ads they have produced are 
helping change how our young people view drugs and drug use.
    Dr. Alan Leshner and the National Institute on Drug Abuse play a 
critical role in the evaluation of the campaign, helping to ensure that 
we are producing the results we need. Dr. Leshner is, without question 
one of the world's leading authorities on drug abuse. NIDA sponsors 
roughly 85 percent of the world's research into drug addiction. The 
media campaign is bringing to bear the half a billion dollars worth of 
research on drug abuse conducted by NIDA every year.
    Major General Art Dean and the Community Anti-Drug Coalitions of 
America (CADCA) are also key partners. For this campaign to succeed, we 
need to reach people not only via the airwaves, but also in their 
communities. Through the help of CADCA, and others such as the 
Prevention Through Service Alliance (an alliance of 47 service groups 
ranging from the Improved Benevolent and Protective Order of the Elks 
of the World, YMCA of the U.S.A., Boys and Girls Clubs, Girl Scouts of 
the U.S.A., to 100 Black Men, Inc.), we are ``localizing'' the 
campaign. We are developing ways, from parenting programs to anti-drug 
soccer tournaments, to reach Americans, where they live, work and play.
    Peggy Conlon of the Ad Council is the quarterback of the anti-drug 
campaign's public service component. The Ad Council is the nation's 
largest clearinghouse for public service advertising. Through the Ad 
Council's help, the campaign has succeeded in actually building new 
opportunities for campaign-related public service advertising efforts 
in support of forty-five national organizations and campaigns, even in 
a time of declining PSA air time.
    Wally Snyder of the American Advertising Federation (AAF) is 
another of our key partners. As a leading representative of the 
advertising industry and advertising agencies across the country, the 
AAF, through its local chapters, provides leadership and facilitates 
development of local market public service announcements to include in 
our media match process at the grass roots level.
    Tro Piliguian CEO, North America of Ogilvy our advertising 
contractor and Paul Johnson Regional President, General Manager of 
Fleishman Hillard, our public affairs contractor are here today 
representing their companies. We are very proud of the smart work these 
firms have done to help us develop and implement the National Youth 
Media Campaign.
                                SUMMARY
    Congress approved the Administration-proposed National Youth Anti-
Drug Media Campaign in response to surging youth drug-use rates. 
According to the National Household Survey on Drug Abuse, past-month 
drug use rates among 12-17 year olds rose from 5.3 percent in 1992 (the 
historical low in the trend since 1979) to 10.9 percent in 1995.
    This integrated public-health communications campaign uses all 
communications vehicles required to influence adolescent attitudes and 
behaviors. Popular culture (including media programming and advertising 
content) too often portrays drug use as common, something to be 
expected, or even humorous. The undisputed influence of popular culture 
on attitude formation and the manner in which it depicts illegal drugs 
and substance abuse are recognized by the Communication Strategy that 
orients all media campaign activities.
    In recent weeks, there have been unfounded assertions that ONDCP is 
not complying with legislation. This is not the case. 21 U.S.C. Sec.  
1801 et seq. outlines the requirement to conduct a national media 
campaign and provides specific instructions to ONDCP. Congress requires 
media outlets to match federal anti-drug advertising dollars on a one-
for-one basis. Networks, magazines, and newspapers may elect to make 
this match with content, public-service activities, or free 
advertising. Congress has wisely allowed ONDCP to ``fashion antidrug 
messages in television programming.'' We fulfill this mandate by making 
available expert scientific advice and technical assistance through a 
Behavior Change Expert Panel and the National Institute on Drug Abuse. 
All ONDCP contracts related to the media campaign are consistent with 
this law.
    The media campaign is being implemented by the best organizations 
in the fields of prevention and communication. The Partnership for a 
Drug-Free America is a key partner. It is best known for its national, 
anti-drug advertising campaign. Ogilvy & Mather is one of the largest 
and most respected advertising companies in the world. Its major task 
is media planning and buying. The Advertising Council, the nation's 
leading producer of Public Service communications programs, oversees 
the National Media Match Clearinghouse on a pro-bono basis. Fleishman-
Hillard, one of the largest and best-respected communications firms in 
the world, conducts media outreach, and oversees the use of the 
Internet and other ``new media'' outlets. The National Institute on 
Drug Abuse plays a critical role in the evaluation of the campaign, 
helping to ensure that we are producing the results we need.
    Advertising (both purchased and pro-bono) on TV, radio, print and 
on the Internet is the cornerstone of the media campaign. We programmed 
178.584 million in fiscal year 1999 for advertising. National 
advertising follows specific anti-drug themes each month across 102 
local markets with more than 2,250 media outlets. We currently reach 95 
percent of 12 to 17 year-olds an average of 8.3 messages per week. The 
non-advertising component of the campaign delivers our messages through 
radio and television, print media, the Internet, faith communities, 
health professionals, community coalitions, schools, parents, coaches, 
and organized sports.
    Everything about this campaign--including the pro bono match--has 
been conducted openly with Congressional oversight, news coverage, 
publicity, and outreach to the media so that reporters could learn more 
about the process. There were three congressional hearings in 1999 on 
the subject of the media campaign, so the notion that this project is 
being conducted ``in secret'' is inaccurate. We have also written 
opinion editorials explaining all aspects of the campaign; these pieces 
have been published in newspapers, magazines, and journals throughout 
the country. Countless press releases, news conferences, and events 
with the President and congressional leadership were devoted to this 
topic as was much TV and radio coverage and a website 
(www.mediacampaign.org) that was accessed 446,596 times in 1999.
    We take seriously concerns about the campaign's pro-bono match 
procedures. There can be no suggestion of federal interference in the 
creative process. In the future we will review programs for pro-bono 
match consideration only after they have aired. We will continue to 
make available information and experts on drug prevention issues to any 
media that requests such assistance.
    We are enormously proud of our hundreds of media partnerships. Drug 
use by America's youth declined 13 percent between 1997 and 1998. We 
are convinced that if we continue to emphasize drug prevention, 
juvenile drug-use rates will drop further. Since illegal drugs cost 
this country more than one hundred billion dollars and 52,000 deaths a 
year, this media campaign addresses a vital issue of public health.
               
               RATIONALE FOR AN ANTI-DRUG MEDIA CAMPAIGN

    Let me begin by framing the problem that brought us here today: 
youth drug use. Adolescent drug use takes a great toll on our young 
people and society. Most of the leading causes of death among 
adolescents--motor vehicle crashes, homicide, suicide and HIV 
infection--are more likely to occur under the influence of illegal 
drugs. On September 4, 1996, following the release of the 1995 National 
Household Survey on Drug Abuse, Director McCaffrey testified before the 
Senate Judiciary Committee about juvenile drug-use trends. At the time, 
he noted that past-month drug use rates among 12-17 year olds was 10.9 
percent in 1995, up substantially from 8.2 percent in 1994, 5.7 percent 
in 1993, and 5.3 percent in 1992 (the historical low in the trend since 
1979). The following excerpt of the Director's testimony identified two 
issues that, in ONDCP's view, contributed to the problem of rising 
youth drug use rates:
Lower public profile of the drug problem
    ``According to the Partnership for a Drug-Free America, there was a 
30 percent reduction in the number of public service announcements 
(PSAs) carried by TV, radio, and print media since 1991. From 1989 to 
1994, there was also a progressive decline in drug coverage on network 
news. While 849 minutes of network news were devoted to drug-related 
issues in 1989, in 1994 only 135 minutes dealt with this topic. 
Attention to drugs did increase slightly in 1995, as reflected in 163 
minutes of network news. Total media support for anti-drug messages 
(broadcast, print, and outdoor advertising) is down $100 million a year 
since 1991. We cannot afford to take our eye off the ball.''
Glamorization of drugs, alcohol, and tobacco condones adolescent use
    ``The glamorization of drugs has not been limited to television and 
film portrayals. It also occurs in videos and the lyrics of popular 
music, advertising and marketing (i.e. fashion's heroin chic look), 
comedy, the Internet, and merchandising where items like jewelry, T-
shirts, temporary tattoos, candy, and soft drinks are among the 
products that promote drug use. The promotion of drugs permeates every 
facet of a child's life. The Budweiser frogs and Joe Camel are very 
familiar cartoon characters for our children. This inundation of pro-
alcohol, tobacco, and other drug messages occurs at a time when new 
technology and techniques enable media to form more dramatic, multi-
sensory, and powerful images than ever before. PSAs and other anti-drug 
messages have demonstrated the ability to influence attitudes towards 
drugs among today's youth. Prevention messages must be repeated with 
adequate frequency and in appropriate venues so that they can counter 
pro-drug messages.''
    ONDCP proposed a National Youth Anti-Drug Media Campaign to address 
these two issues. We very much appreciate the broad bipartisan support 
the proposal enjoyed and Congress' continuing support for the campaign 
in fiscal years 1998, 1999, and 2000. This support allowed a seamless 
transition from a twelve-city test phase (January-July 1998), to a year 
of nationwide testing and evaluation (August 1998-July 1999), to a 
fully integrated media communications effort (August 1999-present).

                    THE INFLUENCE OF POPULAR CULTURE

    What we see and hear in the entertainment media influences our 
beliefs about the world around us.\1\ Today's adolescents are deeply 
immersed in popular culture as it is conveyed through various forms of 
media. On average, American children are exposed to at least eight 
hours of media per day including television, radio, movies, recorded 
music, comics, and video games.\2\ The ubiquitous presence of the media 
in our lives is underscored by the following statistics: \3\
---------------------------------------------------------------------------
    \1\ Brown, Childers, & Waszak, 1990; Gerbner, Gross, Morgan, & 
Signiorelli, 1986; Marc, 1984.
    \2\ Williams and Frith, 1993.
    \3\ Mediascope Issue Brief, ``Popular Culture and the American 
Child,'' Brief Number 199G3d, January 1999.
---------------------------------------------------------------------------
  --Ninety-eight percent of American households have a television set. 
        Among households with children, nearly 87 percent have two or 
        more television sets, and 66 percent of American children have 
        a television set in their bedrooms.
  --Children spend about 28 hours per week watching television. Over 
        the course of a year, this is twice as much time as they spend 
        in school.
  --Sixty-three percent of kids aged 9-17 say that seeing the latest 
        movies is important. 62 percent say that they watch a video at 
        least once a week.
  --Between the 7th and 12th grades, American teenagers listen to an 
        estimated 10,500 hours of rock music. More than three-quarters 
        of American youth between the ages of 9-14 watch music videos.
  --Eighty-nine percent of teenagers use computers several times per 
        week. 71 percent of young people use computers to play computer 
        games, compared to 47 percent who use them for homework, and 31 
        percent for education. Teens spend an average of two and one-
        half hours per day on a home computer.
    Unfortunately, popular culture (including media programming and 
advertising content) too often portrays drug use as common, something 
to be expected, or even humorous. For example, by his or her 18th 
birthday, an average adolescent will have seen 100,000 television 
commercials for beer,\4\ and will have watched 65,000 scenes on 
television depicting beer drinking.\5\ The ONDCP-sponsored Mediascope 
study Substance Use in Popular Movies and Music examined popular movie 
rentals and songs to determine the frequency and nature of depictions 
of substance use (illicit drugs, alcohol, tobacco, and over-the-counter 
and prescription medicines).\6\
---------------------------------------------------------------------------
    \4\ Monroe, 1994.
    \5\ Coombs, Paulson, & Palley, 1988.
    \6\ Office of National Drug Control Policy, Substance Use in 
Popular Movies & Music, Donald F. Roberts, Ph.D., Lisa Henriksen, 
Ph.D., Peter G. Christenson, Ph.D., April 1999.
---------------------------------------------------------------------------
    The Mediascope study found that 98 percent of movies studied 
depicted substance use. Illicit drugs appeared in 22 percent. About 
one-quarter (26 percent) of the movies that depicted illicit drugs 
contained explicit, graphic portrayals of their preparation and/or 
ingestion. Less than one half (49 percent) of the movies portrayed 
short-term consequences of substance use, and about 12 percent depicted 
long-term consequences. All movies in which illegal drugs appeared 
received restricted ratings (PG-13 or R). However, 45 percent of the 
movies in which illicit drugs were used did not receive specific 
remarks identifying drug-related content from the Motion Picture 
Association of America. The major finding from the study's song 
analysis is the dramatic difference among music categories, with 
substance reference being particularly common in Rap. Illicit drugs 
were mentioned in 63 percent of Rap songs versus about 10 percent of 
the lyrics in the other categories. Neither movies nor music provided 
much information about motives for substance use.
    Last month, ONDCP released a second Mediascope content analysis, 
Substance Use in Popular Prime Time Programming which examined the 
twenty five top-rated, most watched primetime broadcast network shows 
(for Hispanic, African American, and general market audience teens and 
adults). The research was commissioned by ONDCP as the first national 
study of the frequency and nature of alcohol, tobacco, and illicit drug 
portrayals on television. The research showed that illicit drugs are 
rarely depicted on primetime network television and that when they are 
depicted, drug use is usually associated with negative consequences.
    We will use this study to take the discussion of the influence of 
TV programming out of the realm of subjective judgement and into the 
domain of verifiable and quantifiable data that can be tracked over 
time.
              THE MEDIA CAMPAIGN'S COMMUNICATION STRATEGY
    The undisputed influence of popular culture on attitude formation 
and the manner in which it depicts illegal drugs and substance abuse 
are recognized by the communication strategy that orients all National 
Youth Anti-Drug Media Campaign activities. Nearly a year of research 
went into developing this communication strategy.\7\ Hundreds of 
individuals and organizations were consulted, including experts in teen 
marketing, advertising, and communication; behavior change experts; 
drug prevention practitioners and representatives from professional, 
civic, and community organizations. These findings resulted in a 
comprehensive communication strategy that uses a variety of media and 
messages to reach young people, their parents, and other youth-
influential adults.
---------------------------------------------------------------------------
    \7\ ONDCP, The National Youth Anti-Drug Media Campaign: 
Communications Strategy Statement, 1997.
---------------------------------------------------------------------------
    Specific conclusions that make the case that the entertainment 
industry must be involved in drug prevention follow:
  --The Campaign should encourage action on the part of other people 
        who influence the lives of youth.
  --Consistent messages conveyed through a variety of channels and in 
        different contexts are necessary to produce an effect.
  --Professional groups--must incorporate the communication strategy 
        into their new and on-going programs.
  --To achieve the maximum effect, the Campaign should use a full range 
        of media mechanisms and formats in an integrated fashion.
  --Effective message tailoring involves . . . working with 
        communications professionals who specialize in creating content 
        for particular audiences.

                    THE MEDIA CAMPAIGN & THE PUBLIC LAW

Public Law
    In recent weeks, there have been unfounded assertions that ONDCP is 
not complying with legislation. This is not the case. 21 U.S.C. 
Sec. 1801 et seq. outlines the requirement to conduct a national media 
campaign and provides specific instructions to ONDCP. Pertinent 
excerpts of Sec. 1802 (Use of funds) are cited below:
  --In general . . . Amounts made available to carry out this chapter 
        for the support of the national media campaign may only be used 
        for . . . ``entertainment industry collaborations to fashion 
        antidrug messages in motion pictures, television programming, 
        popular music, interactive (Internet and new) media projects 
        and activities, public information, news media outreach, and 
        corporate sponsorship and participation.''
  --``Amounts made available under Section 1804 of this title should be 
        matched by an equal amount of non-Federal funds for the 
        national media campaign, or be matched with in-kind 
        contributions to the campaign of the same value.''
Binding Agreements
    All ONDCP contracts related to the media campaign are consistent 
with this law. Pertinent excerpts of contracts are cited below:
    Porter Novelli.--(Effective date 09/15/97). Task was to recommend a 
``broad, comprehensive, cost-effective media strategy, with appropriate 
sub-strategies, which links defined target groups and issues with 
effective message techniques, media of communication, and other 
components . . .'' (P. 10).
    The contractor was specifically instructed to ``determine the most 
appropriate and effective strategies . . . techniques, and media, in 
addition to other non-advertising components necessary for motivating 
youth to reject illegal drugs.'' (P. 9).
    Bates Advertising USA, Inc.--(Effective date 05/26/98). Major task 
was to ``plan and execute media buying.''
    ``The contractor must . . . negotiate pro bono time or in-kind 
public service contributions. Bonus weight shall include, in addition 
to pro bono air and/or space, appropriate programming, public affairs 
efforts, publicity, or in-kind bonus weight equivalent offers.'' 
(Section C, Page 4)
    Ogilvy & Mather.--(Effective date 01/04/99). Task was to 
``implement an integrated communications campaign.''
    This integrated communications campaign is required to include a 
``public service (``media match'') component in which the Contractor 
shall, as part of the media planning and buying process, negotiate with 
media outlets to secure approximately 100 percent additional household 
exposures for public service messages (or other relevant media 
programming, public affairs, or other public service contribution) 
related to the well-being of the nation's youth.'' (Section C, Page 11)
    ``The contractor shall track and document the fulfillment of the 
public service (``media match'') component and value of other media 
exposures generated by the campaign. For example, a TV sitcom featuring 
an anti-drug story line as a result of campaign efforts shall be 
appropriately documented and assigned reasonable dollar value based on 
its contribution to the campaign communication strategy.'' (Section C, 
Page 11)
    Fleishman-Hillard, Inc.--(Effective date 12/03/98). Task was to 
conduct the ``non-advertising component'' of the media campaign.
    One of the specified elements of non-advertising communication is 
``outreach to, and collaboration with, the entertainment industry, 
including television, movies, interactive games for the purpose of 
encouraging media depictions that ``denormalize'' drug use and 
accurately portraying the negative consequences of drug use.'' (Section 
C, Page 14)

          THE MEDIA CAMPAIGN'S MAJOR NON-GOVERNMENTAL PARTNERS

The Partnership for a Drug-Free America (PDFA)
    The Partnership for a Drug-Free America is a private, non-profit, 
non-partisan coalition of professionals from the communications 
industry. Best known for its national, anti-drug advertising campaign, 
its mission is to reduce demand for illicit drugs in America through 
media communication. PDFA has generated more than $2.8 billion in media 
exposure and created more than five hundred anti-drug ads. Its long-
standing national campaign is the single, largest, public service ad 
campaign in history. For twelve years, PDFA's process was the paradigm 
for a public service campaign. No other organization was as successful 
in generating high-quality free ads and placing them pro-bono in the 
media.
    PDFA is a key campaign partner. Mr. Jim Burke, Chairman of the 
Partnership has been one of the strongest advocates for this public-
private media campaign. The Partnership had concluded that intense 
competition, brought on by the splintering of the media, brought new 
economic realities to the media industry in the 1990s. It became quite 
clear to PDFA that the glory days of 1989 and 1990--when its combined, 
estimated media exposure reached $1 million a day--were simply not 
going to return. Indeed, with media donations to the Partnership down 
by more than $100 million since 1991, the outlook for national media 
giving was not at all promising. The ONDCP campaign promised something 
unprecedented for PDFA's public service advertising effort: precise 
placement of the right ads, targeting the right audience, running in 
the right media, consistently, over time. With first-rate anti-drug 
messages produced by advertising agencies through PDFA's creative 
process, that is exactly what the campaign is now delivering. 
Presently, PDFA has developed 37 television commercials, 36 print ads, 
and 21 radio spots for parents and 37 TV commercials, 35 print ads, and 
35 radio spots for youth.
The Advertising Council
    The Advertising Council is a private, non-profit organization, 
which has been the leading producer of Public Service communications 
programs in the United States since 1942. The Advertising Council's 
mission ``is to identify a select number of significant public issues 
and stimulate action on those issues through communications programs 
that make a measurable difference in our society.'' To that end, the Ad 
Council marshals volunteer resources from the advertising and 
communications industries, the media, and the business and non-profit 
communities for the public good. As the nation's largest producer of 
PSAs, the Ad Council has created more than 1,000 multi-media public 
service advertising campaigns addressing critical issues.\8\ During 
1998 alone, the Ad Council advertising received $1.2 billion in donated 
media in support of these efforts.
---------------------------------------------------------------------------
    \8\ Ad Council campaigns, characters and slogans are more than 
memorable--they raise awareness, inspire individuals to take action and 
save lives. Campaigns the Ad Council has conducted include Smokey Bear 
and his famous words of wisdom, ``Only you can prevent forest fires,'' 
(USDA Forest Service); ``Friends don't let friends drive drunk'' (DOT/
NHTSA) McGruff the Crime Dog, who urged Americans to ``Take a bite out 
of crime,'' (National Crime Prevention Council); and ``A mind is a 
terrible thing to waste'' (United Negro College Fund).
---------------------------------------------------------------------------
    The Ad Council performs three crucial tasks in support of the anti-
drug media campaign on a pro-bono basis.
  --Oversee the National Media Match Clearinghouse-sharing over two 
        hundred and sixty five thousand broadcast pro bono ad units 
        with forty five public health organizations \9\
---------------------------------------------------------------------------
    \9\ 100 Black Men, Alanon/Alateen, American Symphony Orchestra 
League, America's Promise, Big Brothers Big Sisters of America, Boys 
and Girls Club, Boys Town USA, Center for Juvenile and Criminal 
Justice/Justice Policy Institute, Center for Substance Abuse 
Prevention/Health and Human Services, Center for Substance Abuse 
Treatment/Health and Human Services, Centers for Disease Control, 
Connect for Kids (The Benton Foundation), Country Music Association, Do 
Good. Mentor a Child/Save the Children USA, Drunk Driving Prevention/
U.S. Department of Transportation, Education Excellence Partnership, 
Educational Testing Service, Girl Scouts of the USA, Give a Kid a Hand/
International Advertising Association, Harvard Mentoring Project, 
Health and Human Services/Substance Abuse and Mental Health Services 
Administration, Hepatitis Foundation International, Kids Peace, 
Mentoring USA, Mothers Against Drunk Driving, National Action Council 
of Minority Engineers, National Committee to Prevent Child Abuse, 
National Council of Teachers of Mathematics, National Council on 
Alcohol and Drug Dependency, Inc., National Crime Prevention Coalition, 
National Fatherhood Initiative, National 4H Council, National Inhalant 
Prevention Coalition, National Institute on Drug Abuse, Parental 
Responsibility/Department of Health and Human Services, Parents as 
First Teachers/El Valor, Partnership for a Drug-Free America, 
President's Council on Physical Fitness and Sports, Points of Light 
Foundation, Prevent Child Abuse America, Recording Artists, Actors and 
Athletes Against Drunk Driving/Department of Transportation, Talking 
with Kids about Tough Issues (Children Now/Kaiser Family Foundation), 
The Reiner Foundation/Families and Work Institute (Early Childhood 
Development), YMCA.
---------------------------------------------------------------------------
  --Production Review.
  --Create an Anti-Drug Coalition Recruitment Campaign.
Ogilvy & Mather
    Ogilvy & Mather is one of the largest and most respected 
advertising companies in the world.\10\ Ogilvy's media company, 
``MindShare'', is by far the largest media organization in the world 
($16 billion in worldwide billings). Ogilvy buys more national 
broadcast media in the U.S. than any other company and is the nation's 
number one radio buyer. Ogilvy's interactive company, OgilvyOne, is the 
largest purchaser of advertising in the world. The company is also 
third largest print buyer in the country. These factors give Ogilvy 
significant negotiating leverage, which results in the lowest possible 
market rates and access to substantial and unique media match 
opportunities. The Company also has considerable experience in social 
marketing campaigns having been responsible for the highly successful 
``America Responds to AIDS'' campaign.
---------------------------------------------------------------------------
    \10\ Ogilvy's 377 offices in 98 countries service more Fortune 500 
clients in 5 or more countries than any other advertising agency.
---------------------------------------------------------------------------
    Ogilvy & Mather performs the following tasks in support of the 
anti-drug media campaign.
  --Media planning and buying.
  --Oversight, negotiation, and implementation of media match.
  --Internet media planning and buying.
  --Strategic planning and consumer research.
  --Creative development for advertising ``gaps.''
  --Development of advertising copy rotation plans.
  --Trafficking all advertising materials to media outlets.
  --Management of the Behavior Change Expert Panel.
  --Management of six multicultural subcontractors.
  --Management of three target audience specialist subcontractors.
    In its role as the primary advertising contractor on the ONDCP 
contract, Ogilvy offers added value to both ONDCP and PDFA in the 
following areas:
    Media Planning and Buying.--With buying leverage based on handling 
the world's largest aggregate media budget and widely acknowledged 
planning and buying expertise, Ogilvy can secure the highest quality 
media for the lowest possible price. Moreover, Ogilvy's media plans and 
buys are creative and savvy, selectively identifying effective, 
intrusive and relevant vehicles from the plethora of media 
opportunities available to a contemporary advertiser.
    Ogilvy's superior media planning and buying enables anti-drug 
messages to receive greater visibility than they have ever had in their 
history, getting more television in better time slots, for instance, 
than any other agency could have achieved for them. In addition, PDFA's 
volunteer agencies have many more media vehicles with which to show off 
their talents. This range of vehicles is an unprecedented opportunity 
to build the individual portfolios of agency creative personnel and 
expand an agency's new business book and reel of great advertising.
    Creative Executions.--The pre-testing, planning, and research 
regimen that Ogilvy is working to put in place greatly raises the odds 
of developing more effective creative material that will help prevent 
drug use among youth. Pre-testing will help hone specific messages, 
while generating learning that will inform ad creators. Ogilvy manages 
an array of planning resources--from full-time agency planning staff to 
Target Audience Specialists to the BCEP--that provide invaluable input 
to the creative development process. No private sector marketer would 
mount an effort of this scope without conducting such extensive 
research.
    Strategic Counsel.--Ogilvy's strategic and planning resources not 
only have enhanced the creative message; they have also improved the 
development and implementation of the overall marketing plan. Branding 
and flighting are two useful examples.
    Branding is universally acknowledged by sophisticated marketers and 
leading advertisers as the way to ensure long-term, sustainable 
success, and to multiply the impact of advertising dollars. Branding is 
essentially unites the diverse elements of our message platforms 
through one unifying concept--a brand, which is the sum of what our 
effort represents. Branding increases consumer mind share of anti-drug 
messages; maximizes the impact of advertising dollars; creates synergy 
between advertising and non-advertising messages; and unites an 
organization's messages. Branding is a business proven concept. 
Ogilvy's 4-month Brand Stewardship research process (which entailed 
interviewing adults and youth of all ethnicities) led to the adoption 
by ONDCP of ``The Anti-Drug'' As the campaign's brand. Phone call 
response to the new branded ads has been excellent.
    Ogilvy's flighting plan will enable ONDCP to focus all elements of 
the integrated communications plan on strategic message platforms that 
have been identified by ONDCP's behavior expert panel. The flighting 
approach schedules each message platform for a four to six week period 
and allows both youth and parent strategies to be ``seeded'' before 
shifting to the next message platform. This ensures that each platforms 
receives sufficient impact. As opposed to the first two phases, each 
individual platform will receive sufficient media exposure to change 
attitudes and ultimately behavior. Moreover, disparate local coalitions 
and community efforts can work synergistically with this focused 
national campaign to increase the effectiveness of the effort. PDFA and 
its Creative Review Committee have endorsed this strategic approach.
    Multicultural Resources.--Both ONDCP and PDFA have gained access 
through Ogilvy to substantial multicultural resources, from target 
audience specialists to ethnic advertising experts. Indeed, Ogilvy's 
subcontractors have helped PDFA develop much of the work that has been 
created to address critical ethnic ``gaps.''
    Accountability.--Ogilvy has helped ONDCP fulfill its responsibility 
to the public and its mandate from Congress that the National Youth 
Anti-Drug media effort be a completely transparent operation. Through 
sophisticated and proprietary methodologies like the econometric 
analysis of Pathways Plus and initiatives like the Tracking Study, 
Ogilvy will be able to monitor the campaign's successes and failures--
and refine and improve its execution.
Fleishman-Hillard
    Fleishman-Hillard is one of the largest and best-respected 
communications firms in the world. Fleishman-Hillard has a 53-year 
history of delivering results for some of the world's best-known brands 
like McDonalds, Wal-Mart, Levi-Strauss and United Airlines. It is no 
accident they represent nearly a fifth of the top 100 of Fortune 
magazine's annual list of ``Most Admired Companies.'' Their network of 
eighteen fully owned domestic agency offices and more than 850 
employees are ready to support the needs of this challenging campaign.
    For the fifth year in a row, a 1999 Harris-Impulse Poll rated 
Fleishman-Hillard as having the best reputation of any of the major 
public relations firms. This year they also rated Fleishman-Hillard as 
the top agency in the Washington, DC market. It is also the only agency 
to be ranked either first or second for overall quality of service by 
the industry's leading trade publication, Inside PR, for nine 
consecutive years.
    The Fleishman-Hillard team has managed research-based social 
marketing and communications efforts for non-profit organizations and 
partnerships to educate Americans about health and social issues 
ranging from safe food handling, improving nutritional content in 
Americans' diet, to protecting our children from danger online.
    Fleishman-Hillard performs the following task for the media 
campaign:
  --Media outreach to generate earned media placements of key campaign 
        messages and improve accuracy in coverage of facts and issues 
        to educate the media about youth drug use.
  --Partnerships and alliance building with government, non-profit, 
        professional, community and civic organizations designed to 
        reach members of the target audiences with credible campaign 
        messages and other programmatic activities to extend the impact 
        of campaign messages.
  --Internet and other ``new media'' activities including strategic 
        analysis and use of ``new media''; web site design and 
        maintenance; coordination with Internet advertising; other 
        Internet, CD-ROM, and other interactive activities capable of 
        delivering high impact campaign messages or coordinating 
        campaign stakeholders.
  --Outreach to and collaboration with the entertainment industry 
        including television, movies, music, interactive games for the 
        purpose of encouraging media depictions that ``denormalize'' 
        drug use and accurately portray the negative consequences of 
        drug use.
  --Graphics support and materials development for press kits, fact 
        sheets, publications, exhibits, and coordination of materials 
        development by partner organizations.
  --Stakeholder communications including a bi-monthly newsletter, 
        update letters, meetings and briefings, interactive media, and 
        other communications to keep stakeholders abreast of 
        developments in the campaign and to generate further 
        involvement and support.

  THE INTEGRATED NATURE OF THE NATIONAL YOUTH ANTI-DRUG MEDI CAMPAIGN

The anti-drug media campaign is anchored by a broad advertising effort
    Advertising (both purchased and pro-bono) on TV, radio, print and 
on the Internet is the cornerstone of the media campaign. We programmed 
$153.017 million in fiscal year 1998 for advertising and increased 
allocations for advertising by 16.7 percent to $178.584 million in 
fiscal year 1999. The national advertising follows specific anti-drug 
themes each month across 102 local markets with more than 2,250 media 
outlets. The strategic use of advertising increases the reach and 
frequency of our key messages. We currently reach 95 percent of 12 to 
17 year-olds an average of 8.3 messages per week.
Complementary communications activities
    The non-advertising component of the anti-drug campaign delivers 
our messages through radio and television, print media, the Internet, 
faith communities, health professionals, community coalitions, schools, 
parents, coaches, and organized sports. The drug prevention campaign 
also includes an entertainment industry component to ensure that drug 
use is depicted accurately on television and in film and music. We 
programmed $12.778 million in fiscal year 1999 to anti-drug outreach 
media campaign programs that include the following activities:
  --Partnerships w/Community/Civic and other Organizations.--To extend 
        and amplify the reach of campaign messages, the non-advertising 
        component builds support for prevention programs with 
        organizational and community partners; increases public 
        information and news coverage about drug prevention issues and 
        risks to target audiences; harnesses the power of the Internet 
        and collaborates with the entertainment community.
      We have attracted thousands of partners in our effort to reach 
        youth and adults--allowing a wide variety of public and private 
        organizations to participate in and extend the reach of the 
        Campaign. Here are some examples:
    --Blast e-mail system.--There is a media campaign blast e-mail 
            system that keeps more than 45,000 stakeholders aware of 
            campaign activities and outreach. The 45,000 stakeholders 
            we reach directly with these emails in turn generate more 
            readers and viewers of campaign products through their own 
            communication channels that reach literally millions.
    --YMCA of the USA.--Another example is our partnership with the 
            YMCA of the USA, which reaches out to sixteen million 
            people (eight million kids). As a result of this 
            partnership, for the first time in their history, the YMCA 
            is incorporating drug prevention resources and messages 
            into their publications and curriculum materials.
    --Youth Service America.--Similarly, the Media Campaign is 
            collaborating with Youth Service America--an umbrella 
            organization of two hundred youth service groups 
            representing thirty million young Americans--to regularly 
            disseminate Media Campaign information through their 
            network.
    --National Future Farmers of America.--The National FFA is co-
            sponsoring a national PSA contest incorporating campaign 
            themes.
      The campaign is also working through national organizations like 
        the Boys and Girls Clubs and the National Middle Schools 
        Association to strengthen anti-drug efforts at the local level.
Entertainment Industry Outreach and Collaboration
    ONDCP and PDFA are engaging the entertainment industry to ensure 
that when drugs are portrayed in programming, an accurate depiction is 
communicated--including risks and consequences. We are also conducting 
content analysis studies to determine how drugs are portrayed in 
entertainment media.\11\ We are meeting regularly with producers and 
entertainment executives in Hollywood to offer factual medical and 
behavioral perspectives on drug use. Our outreach initiatives to the 
entertainment industry are described in greater detail in Part VI of 
this testimony.
---------------------------------------------------------------------------
    \11\ See for example Substance Abuse in Popular Movies & Music, 
Office of national drug Control policy & U.S. Department of Health and 
Human Services, April 1999.
---------------------------------------------------------------------------
Interactive (Internet/New Media) Projects/Activities
    This is the most comprehensive interactive media effort ever 
launched by the Federal Government. There are several reasons the 
Internet is a powerful vehicle for delivering our campaign messaging. 
In sum, they are: the medium is growing; our target audience's use of 
the medium is growing; the medium enables targeted, personalized 
messaging; success measures are granular and immediate; the internet is 
extremely cost effective; and synergies with the overall media plan are 
considerable.
    Internet usage growth has been 100 percent over the past two years, 
and is likely to continue to grow at a compounded annual growth rate of 
53 percent over the next four years.\12\ The Internet's expansion 
outpaces that of television and radio following their introductions. 
The penetration attained by the Internet in its first five years was 
matched by television after thirteen years and radio after thirty-eight 
years.\13\ Users spend an average of 7.5 hours on-line each month, and 
this time is increasing.\14\
---------------------------------------------------------------------------
    \12\ EMarketer, September 20, 1999.
    \13\ Meeker, Mary and Pearson, Sharon, Morgan Stanley, U.S. 
Investment Research: Internet Retail, May 28, 1997.
    \14\ Jupiter Digital Kids, 1999.
---------------------------------------------------------------------------
    While 22 percent of households with children are on-line, 34 
percent of 12 to 17 year-olds have access to the Internet today, and 60 
percent are expected to have access by the year 2002.\15\ Parents are 
also on-line during work-hours; the Internet is the most accessible 
communications medium in the workplace. Parents access the web 
primarily for information. Health data is second only to news in terms 
of the reasons they log on.\16\
---------------------------------------------------------------------------
    \15\ EMarketer, September 20, 1999--While 22 percent of households 
with children are on-line, 48 percent of 12 to 17 year olds have access 
to the Internet today, and 60 percent are expected to have access by 
the year 2002.
    \16\ Media Metrix, August, 1999.
---------------------------------------------------------------------------
    The World Wide Web, with eight million sites, allows for much 
narrower targeting than other media. Internet technology is becoming an 
integral component of other entertainment/infotainment vehicles (e.g. 
games, CDs, CD-ROMs, DVD), further increasing target breadth/
engagement. Technology enables users to delve deeply and immediately 
into subjects of interest, with the potential for immediate two-way 
dialogue/response.
    A distinct benefit of advertising on the Internet is the ability to 
closely track its effectiveness in reaching the target audience through 
site-specific information (e.g. clicks, page views, time visited). The 
power of the Internet experience is in the length and intensity of the 
interaction. Internet visitors tend to spend longer and get more 
involved in the subject matter than they do with printed or other non-
interactive methods.
    The Media Campaign manages eight web sites (Theantidrug.com, 
Freevibe.com, AOL Parents' Drug Resource Center, Projectknow.com, 
Mediacampaign.org, Straightscoop.org, Freevibe Teachers' Guide, AOL's 
It's Your Life) where parents, teens and tweens can learn, play and 
interact with others. The sites are widely publicized, including 
references and links through hundreds of other web sites focused on 
parenting, education, sports and general teen outreach. Current key 
site statistics follow:
Freevibe:
  --Since its launch in March of 1999, Freevibe.com has received 
        3,088,600 page views.
  --Average Number of Page Views Per Day--10,500.
  --Average User Session Length--8 minutes and 30 seconds.
Projectknow:
  --This was the original campaign web site. It is currently being 
        phased out of the campaign. In 1999, Projectknow.com was 
        accessed 6,483,583 times by 1,647,967 users.
  --Average Number of Page Views Per Day--15,465.
  --Average User Session Length--10 minutes and 29 seconds.
AOL Parents' Drug Resource Center:
  --Since the launch of the Parents' Drug Resource Center area, it has 
        received 702,151 visits.
  --Average User Session length--6 minutes and 30 seconds.
  --Most popular area--Be Informed (describes today's street drugs and 
        their effects)
Theantidrug.com:
  --In its first month of full-time operation, the site received 52,950 
        page views.
  --Average Number of Page Views Per Day--1604
  --Average user Session length--7 minutes and 13 seconds
    In addition to the web sites for which we have direct 
responsibility, we are now linked to many other government websites. 
You may recall that Representative Matt Salmon led the way by 
introducing legislation to include anti-drug messages on NASA's 
website--the government site most visited by young people. Since NASA 
agreed to carry anti-drug messages and link to our web sites, more than 
twenty other federal agencies have added anti-drug messages to their 
websites.
    Beyond government sites, we are adding an average of three more web 
site links per week to educational groups, non-governmental 
organizations, advocacy groups and others in the prevention community. 
The campaign has developed and continues to develop on-line interactive 
resources for all campaign audiences, both on its own and in 
collaboration with major on-line media companies such as AOL and SONY.
News Media/Public Education Outreach
    Central to the media campaign are Public Information activities 
dealing with the news media, direct outreach, and special events to 
generate a steady flow of campaign messages to youth and adult 
audiences. Campaign news media outreach in 1999 alone has generated 
more than 124 million media impressions. Outreach ranges from national 
print and broadcast outlets to local community (and even school) 
newspapers in order to provide context, relevance and repetition for 
campaign messages, educate reporters, and leverage current events and 
trends. In addition, program activities and outreach initiatives have 
been developed to reach adults and kids where they spend the majority 
of their time--at work and in school.
    We have partnerships with the Chicago Tribune, New York Times, and 
USA Today. The campaign created the Straight Scoop School News Bureau 
as a resource for middle and high school journalists. Seven television 
networks produced their own anti-drug PSAs as a result of ONDCP 
outreach. Some examples of public information outreach are:
  --Cub Reporters.--A major cable company, MediaOne, and ONDCP co-
        sponsored a ``Cub Reporter'' bus tour from Miami to Washington, 
        DC in the last week of August. The cub reporters talked with 
        and filmed other kids' experiences and opinions about drugs. A 
        30-minute documentary based on their experiences will be 
        broadcast in November.
  --School-based programs.--In August, ONDCP unveiled a package of 
        school-based programs for the 1999-2000 school year and beyond. 
        They include:
      The Straight Scoop News Bureau, a resource for middle and high 
        school journalists to give them factual ``straight scoop'' 
        information on drugs and drug use. Partners in the new bureau 
        include the Annie E. Casey School of Journalism for Children 
        and Families, Chicago Tribune and the New York Times. News 
        bureau resources can be found at www.straightscoop.org.
      Just recently, the Straight Scoop News Bureau teamed up with Sun 
        Microsystems, OpenVoice and Athlete Direct to host a live 
        online chat with San Francisco 49'ers Quarterback Steve Young. 
        Young discussed the importance of living a healthy, drug-free 
        lifestyle. Student journalists were encouraged to ask Steve 
        Young questions and publish articles in their school papers. 
        This event was broadcast live via satellite to more than 250 
        cities across the country. Altogether, the online and 
        satellite-link audience was estimated at over 3 million.
Corporate Sponsorship/Participation
    ONDCP and PDFA are increasing the number of strategic campaign 
partners--both organizations and businesses--that help us deliver anti-
drug information. America On Line created the Parents' Drug Resource 
Center (AOL Keyword: Drug Help) to help parents influence their 
children to remain drug free. Many National Football League, Major 
League Baseball, National Basketball Association, and Major League 
Soccer teams show our anti-drug ads during games.

                THE CAMPAIGN'S ENTERTAINMENT INITIATIVE

    The media campaign's entertainment initiative has several major 
components, all of which are guided by a fundamental philosophy: the 
entertainment community is a crucial player in addressing substance 
abuse among teens. They are the most powerful creative force in the 
world, and we firmly believe they are part of the solution. We do not 
subscribe to the widely held view that popular culture is inevitably a 
destructive force in the area of drugs, and you will not hear this 
campaign attacking the entertainment community. What you will hear 
instead is a call for dialogue. We offer information, materials, 
experts, and a commitment to working together over the long haul. We do 
not proselytize. We realize that you cannot ``shoe horn'' a drug 
message in a script where it does not belong. It must appear 
organically, and the only way that can be done is if the creative 
community is aware of the issues and facts. We want creative people and 
organizations to understand drug use and prevention issues so they can 
depict them accurately. Parent denial, risk perception, peer refusal 
skills and other message strategies are most effectively communicated 
by creative talent that is aware of and sensitized to the issues. The 
media campaign's entertainment outreach goals follow:
  --Encourage accurate depictions of drug use issues--including the 
        consequences of drug abuse in programming popular with teens 
        and parents.
  --Incorporate strategic drug prevention messages and themes into 
        popular culture, and dispel myths and misconceptions about drug 
        abuse.
  --De-normalize the image of drug use on TV, and in popular music and 
        film.
  --Use entertainment media to provide accurate drug information and 
        resources on substance abuse to parents, caregivers, faith 
        community leaders, and policymakers.
    One of our key strategies is to inform the creative process through 
a series of briefings, roundtables, and workshops in New York and 
Hollywood. These events are a cost-effective way to educate and inspire 
television writers, film screenwriters, and executives to portray 
realistic substance abuse consequences and to spur ideas for future 
storylines or scenes. Sometimes only a one-second frown or wave of the 
hand when someone is offered marijuana is all that is needed. The 
payoff can be substantial. Campaign messages are incorporated into 
dramatic storylines that are conveyed on valuable airtime, via top-
rated shows seen by millions of viewers. In fact, if the campaign were 
to rely exclusively on purchasing ad time, reaching audiences of this 
size would be prohibitively expensive.
    Some of the sessions we conducted last year included briefings for 
network executives at ABC and Fox Television and a roundtable for 
creative executives involved in programming that targets children and 
teens. We met with a broad array of entertainment industry 
organizations and their leaders including the Writers Guild, Caucus of 
Producers, Writers and Directors, Entertainment Industry Council, 
Screen Actors Guild, Directors Guild, Producers Guild, Academy of 
Television Arts and Sciences, and other organizations. We also met with 
industry leaders in Hollywood including Rob Reiner, Richard Dreyfuss, 
Barry Diller, Frank Biondi, and senior executives of major networks. We 
participated in entertainment industry events and briefed executives 
from Hollywood talent agencies, and publicity and management firms. And 
we've provided information and subject matter experts to writers and 
producers of individual shows, including Cosby, Chicago Hope, ER, and 
Beverly Hills 90210.
    As a result of these activities, we have captured the attention of 
key creative and programming executives at, among others, all six 
broadcast television networks (ABC, CBS, NBC, Fox, The WB, UPN), The 
Fox Family Channel, Warner Bros. Television, Disney Television, 
Universal Television, The Writers Guild, The Directors Guild, and The 
Screen Actors Guild. We will also partner with entertainment industry 
organizations, other federal agencies, and nonprofit organizations 
whose goals complement ours. For example, we are excited about a new 
partnership with The Hollywood Reporter--a daily newspaper that 
delivers news coverage and in-depth stories to industry professionals 
around the world; it is one of the ``must read'' publications in the 
entertainment industry. They have agreed to work with the campaign to 
develop a series of workshops that will support our education efforts 
on the topic of substance abuse.
    To support its outreach strategy, the ONDCP Entertainment Team 
identifies and provides experts and resources to the entertainment 
community, particularly writers who may have questions concerning 
substance abuse. This expertise is specifically tailored to meet the 
needs of the television industry, particularly the time constraints 
under which writers work. Experts are prepared carefully so that they 
can work effectively with television writers and producers, but remain 
true to the messages of the campaign. As a result writers gain a deeper 
understanding of how to depict substance abuse accurately
    To help us accomplish these goals, we work directly with many of 
the key entertainment industry organizations, particularly those on the 
creative side of the business. We also have retained expert counsel in 
New York and Los Angeles, the capitals of the entertainment world, to 
work with the campaign to develop our core strategies. Collectively, we 
work on the following activities:
  --Providing resources and information on substance abuse to industry 
        leaders and the creative community through briefings, special 
        events, collateral materials and access to experts.
      We are working with and engaging writers, producers, directors, 
        network executives, musicians, and entertainment industry 
        associations, forming relationships and partnerships to 
        encourage America's young people to reject illegal drugs. By 
        showing the range of negative consequences of substance abuse, 
        by depicting drugged behavior as unglamorous and socially 
        unacceptable, we can discourage drug use. The creative 
        community is in a unique and powerful position to communicate 
        that drug use is neither normal nor mainstream; it is 
        undesirable.
      Since the campaign began, ONDCP has maintained dialogue with a 
        number of writers, producers, directors, and studio executives. 
        They are an extraordinarily talented and creative group of 
        people who have consistently demonstrated their ability to 
        combine positive messages with compelling entertainment. 
        Popular shows like The Practice, Home Improvement, 7th Heaven, 
        ER, Cosby, Beverly Hills 90210, and Hang Time have featured 
        realistic, fact-based depictions about substance use in their 
        storylines. All are award-winning programs watched by teens and 
        parents. None of these shows saw declines in either quality or 
        ratings because of their choice to both depict the negative 
        consequences of substance use and show positive examples of 
        families dealing with drugs. In short, entertainment and 
        responsibility are not mutually exclusive, and we are 
        privileged to be working with some of this country's most 
        creative, talented, and committed individuals on this 
        groundbreaking effort. We believe our outreach to the 
        television industry has helped to make this past year one of 
        the best ones for accurate depiction of drug use and drug use 
        issues on network television.
  --Engaging celebrities who are positive role models in extending the 
        reach of campaign messages through participation in such 
        activities as personal appearances and on-line chats.
      Advertisers and marketers have long used celebrities to make 
        their messages more appealing. The technique is particularly 
        effective with young people, who frequently try to emulate the 
        looks, behavior, and attitude of their favorite stars. The 
        media campaign is using support from popular public 
        entertainment figures to enhance the campaign's credibility and 
        visibility among youth; increase potential media coverage of 
        illegal drug use and its consequences; and help campaign 
        messages reach key target audiences in a compelling and 
        effective manner by featuring celebrities in a setting more 
        accessible than advertising. In order to appeal to the broadest 
        audiences, we are using a diverse group of celebrities in a 
        variety of ways.
      An impressive range of celebrities has spoken publicly about 
        campaign themes and goals. Youth and parents nationwide have 
        heard celebrity voices from many of the entertainment genres, 
        including: TV (e.g., Eriq La Salle of NBC's ER, Jenna Elfman of 
        ABC's Dharma & Greg, Ken Olin of CBS's LA Doctors, Lisa Nicole 
        Carter of Fox's Ally McBeal); film; popular music (e.g., Lauryn 
        Hill, The Dixie Chicks); amateur and professional sports (e.g., 
        U.S. Women's World Cup champion soccer team, Olympic Gold 
        Medallist Tara Lipinski, Mike Modano of the National Hockey 
        League champion Dallas Stars), comedy (e.g., Howie Mandel); and 
        pop culture (e.g., Miss America 1999 Nicole Johnson, Marvel 
        Comics' Spider-Man). All have generously donated their services 
        to the American taxpayer. Seven television networks have 
        produced public service announcements using celebrities from 
        their most popular shows. We do not pay for talent--which could 
        amount to millions--but credit the cost of the time. These 
        messages are reviewed by ONDCP to ensure they are supportive of 
        the campaign's communication strategy--no fees have been or 
        will be paid to celebrities to take part in Media Campaign 
        activities.
  --Recognizing and commending accurate portrayals of drug issues on 
        TV, film and in other entertainment media, and honoring the 
        creative efforts of writers, directors, producers, actors and 
        studio executives.
      The National Institute on Drug Abuse (NIDA) has long worked with 
        the Entertainment Industry Council (EIC) to bring science-based 
        information about alcohol, drugs and tobacco to creators of 
        entertainment products. In 1996, NIDA and EIC developed the 
        PRISM awards for accurate depiction of alcohol, drugs and 
        tobacco. We expect that the media campaign's entertainment 
        outreach initiative will result in a considerable increase in 
        the number of candidates for PRISM awards at the March 2000 
        ceremony.
  --Conducting content analysis and other research to determine how 
        entertainment media depict substance abuse issues. Careful 
        examination of media content is a crucial first step in 
        determining what role media may play in promoting substance use 
        and abuse. The two Mediascope content analyses (whose principal 
        findings were summarized in Section II of this statement) are 
        examples of the factual way ONDCP is addressing the issue of 
        the entertainment industry's depiction of illegal drugs.
  --Cross-Marketing: Beyond Movies and Television. To ensure that 
        campaign messages reach teens and parents through as many 
        outlets as possible, ONDCP's Entertainment Team is extending 
        its activities beyond music and television, and focusing 
        attention on the fashion and retail industries, home video, and 
        motion pictures.
      We are also exploring partnering with home video distributors and 
        retailers in the promotion of campaign messages via inserts in 
        new home video releases and retail store promotions. This 
        initiative is in its nascent stage, but initial outreach has 
        begun with studio marketing executives and home video 
        distributors.

                        THE ROLE OF PROGRAMMING

    In the 1980s, public-health advocates began to harness television 
programming to promote public-health issues. Since then, numerous 
campaigns have sought to communicate prevention messages within 
programming. Research underscores this approach:
  --The National Designated Driver Campaign.--One of the best-
        documented examples of a media campaign incorporating 
        entertainment programming is the National Designated Driver 
        Campaign that was launched in 1988. According to Dr. Jay A. 
        Winsten, Ph.D., Associate Dean and Director of Harvard School 
        of Public Health's Center for Health Communication, the 
        campaign broke new ground when television writers agreed to 
        insert drunk driving prevention messages in scripts of top-
        rated shows. Dr. Winsten describes this campaign as ``the first 
        successful effort to mobilize the Hollywood creative community 
        on such a scale, using dialogue in prime time entertainment as 
        a health promotion technology.'' This integrated public-health 
        communications campaign had a marked effect on alcohol-related 
        traffic fatalities. Whereas in the three years before the 
        designated driver campaign there had been 0 percent change in 
        such fatalities, by 1992 (four years after the campaign's 
        launch), annual fatalities had declined by 24 percent.\17\
---------------------------------------------------------------------------
    \17\ Winsten JA. Promoting Designated Drivers: The Harvard Alcohol 
Project. American Journal of Preventive Medicine. 1994 May-June; 10(3 
Suppl):11-14.
---------------------------------------------------------------------------
  --1999 Healthstyles Survey.--Centers for Disease Control and 
        Prevention analysis of this report reveals that almost half (48 
        percent) of the people who report they watch soap operas at 
        least twice a week learned something about diseases and how to 
        prevent them from the daytime drama story lines. More than one-
        third (34 percent) took some action as a result. One in four 
        (25 percent) told someone about it, 13 percent suggested 
        someone do something about it, 7 percent visited a clinic or 
        doctor, and 6 percent did something to prevent the problem.\18\
---------------------------------------------------------------------------
    \18\ The Healthstyles Survey is a proprietary database product 
developed by Porter Novelli. Its sampling is based on seven U.S. Census 
Bureau characteristics. The survey is used by organizations such as CDC 
to shape public-health outreach efforts.
---------------------------------------------------------------------------
    The media campaign's Communication Strategy Statement highlights 
programming's potential for communicating public-health messages. 
Excerpts of the document follow:
  --``Research has repeatedly shown that media programs work best in 
        conjunction with other community- and school-based anti-drug 
        programs, when consistent messages are conveyed through a 
        variety of channels and in several different contexts.'' (Flay 
        & Sobel, 1983; Macoby, 1990; Schilling & McAllister, 1990; 
        Sloboda & David, 1997)--P. 6.
  --``Health information, including information about drug use issues, 
        is provided through all forms of media including news, 
        entertainment programming, and advertising. This information is 
        so pervasive that most people report the media as their primary 
        source of information about health issues.'' (Freimuth, Stein, 
        and Kean, 1989)--P. 7.
  --The media campaign must ``harness a diverse media mix including 
        television, video, radio, print, and Internet and other forms 
        of new media to deliver both general and tailored messages. 
        Within the media mix, messages will be delivered through the 
        full range of media content, including paid and public service 
        advertising, news, public affairs, programming, and 
        entertainment programming.''--P. 9.
  --``Effective message tailoring involves . . . working with 
        communications professionals who specialize in creating content 
        for particular audiences.''--P. 9.
Evaluations of the media campaign confirm this research
    ONDCP September 1998 report to Congress.--(Testing the Anti-Drug 
Message in 12 American Cities: National Youth Anti-Drug Media Campaign 
Phase I (Report No. 1)--found:
  --Youth asserted that ``TV programming promotes drug use and 
        violence.''--P. ES-4.
  --``Parents' perceptions of the cultural relevance and credibility of 
        anti-drug ads, much like youth's perceptions, focused more on 
        program content and presentation . . .''--P. ES-7.
  --The Internet, television shows, and song lyrics heard on radio 
        frequently condone the use of drugs. Youth are bombarded with 
        these messages on a daily basis. Mothers and fathers frequently 
        work long hours outside the home, leaving their children free 
        during the after school hours to watch television and be 
        exposed to messages that glamorize drug use. Youth, 
        particularly high school students, are subjected to ever-
        increasing sources of stress in their daily lives. Future 
        decisions about the design and implementation of the media 
        campaign should be made within the context of these issues.''--
        P. ES-13.
    ONDCP June 1999 report to Congress.--(Investing in our Nation's 
Youth: National Youth Anti-Drug Media Campaign Phase II Final Report)--
found that:
  --``There was a significant increase in the percentages of both youth 
        and teens who perceived that TV shows, news, and movies were 
        important sources of anti-drug information.''--P. 5-2.
  --``The use of TV shows, news, and movies; outside billboards; and 
        posters on buses, bus stops and subways are effective ways of 
        reaching youth and teens with anti-drug messages.''--P. 5-3.
    Today, there are a number of national organizations working within 
the existing structures of the entertainment industry, attempting to 
have a positive influence on programming. They include the Henry J. 
Kaiser Family Foundation, the National Campaign to Prevent Teen 
Pregnancy, Mothers Against Drunk Driving, the Population Communications 
Institute, the American Lung Association, and the media campaign's own 
partner, Mediascope. Their efforts are complemented by those of federal 
agencies like ONDCP, NASA, the National Institutes of Health, the 
Centers for Disease Control and Prevention, as well as all of the 
branches of our armed forces, who work to ensure that entertainment 
portrays issues and situations realistically and accurately. ONDCP 
remains convinced that for the National Youth Anti-Drug Media Campaign 
to be most effective, scientifically accurate drug-prevention messages 
must be conveyed through programming.

                     THE PRO-BONO MATCH REQUIREMENT

    One of the foundations of our strategy is the pro-bono match 
requirement outlined in Omnibus Consolidated and Emergency Supplemental 
Appropriations Act, 1999 (Public Law 105-277, October 21, 1998). The 
act stipulated that federal funds spent on advertising must be must be 
matched with in-kind contributions of the same value. ONDCP allows 
Public Service Advertising (PSA) time and space, public affairs 
activities, and programming to count as public service contributions. 
Individual companies decide how to meet this requirement. The only 
proviso is that the majority of the match must be in the form of 
equivalent PSA time and space.
    Zenith Media (our advertising purchasing company in 1998) created a 
formula for valuing programming content similar to those used by 
product sponsors for a program episode. The formula is based, 
conservatively, on requirements for a product advertiser to officially 
sponsor a program. For example, an on-strategy storyline that is the 
main plot of a half-hour show can be valued at three thirty-second ads. 
If there is an end-tag with an 800 number or more information at the 
end of a half-hour show, it is valued at an additional fifteen-second 
ad. A main storyline in an hour-long prime-time show is valued at five 
thirty-second ads, while such a storyline in a one-hour daytime show is 
valued at four thirty-second ads.
    Indeed, considerable public service time and space has been 
generated by the media match requirement. According to Ad Age, the 
ONDCP campaign is a factor in increasing the public service time on 
prime time network TV. ONDCP retains all magazine, print and out of 
home space and uses it for campaign messages. The radio and TV time is 
shared with other organizations that have drug-related messages. More 
than 265,000 radio and TV public service messages have been played in 
support of forty-five organizations. The Ad Council oversees the 
process for national ads. The American Advertising Federation plays a 
similar coordinating role in 102 local media markets. In the coming 
year, we will see a much larger number of local organizations 
benefiting from the pro-bono match component of the Media Campaign.
Criteria for evaluating consistency with the campaign's strategic 
        message platforms
    Director McCaffrey personally approved procedures for determining 
valuation of ``in-kind contributions'' to the national media campaign 
on April 23, 1998. ONDCP and our contractors have followed these 
procedures. Specific elements of this decision included:
  --Eligibility for pro-bono match.--Media outlets were allowed to 
        provide in-kind contributions provided that the majority of the 
        match was satisfied with advertising time and space donations. 
        The balance of the match could be met by media outlets with 
        relevant non-advertising efforts such as programming, locally 
        or nationally sponsored community events, appropriate public 
        affairs programming, in-school programs, or in-kind donations.
  --Requirement that current pro-bono public service time not be 
        supplanted.--ONDCP contracted the Advertising Council to 
        allocate national-level pro-bono PSA slots to eligible 
        campaigns and to ensure that the media campaign did not reduce 
        existing levels of pro-bono advertising time and space in 
        accordance with the law and congressional intent.
  --Establishment of a Media Match Task Force.--This task force 
        includes representatives from ONDCP, the Advertising Council, 
        the Partnership for a Drug-Free America, the Department of 
        Health and Human Services, the Department of Justice, and the 
        Department of Education. It assesses implementation of pro-bono 
        match guidelines and recommends changes.
  --Specific criteria for qualification as ``in-kind contributions'' 
        for programs.--Programs that include messages promoting 
        activities, behavior, and healthy environments that prevent 
        drug use by youth can be considered for pro-bono match 
        purposes. The specific criteria that have been applied are: 
        Does the program--
    --Educate and support the development of good parenting practices.
    --Encourage greater parental and caregiver involvement in a child's 
            upbringing and effective drug-prevention parenting 
            strategies.
    --Provide early childhood development programs that strengthen the 
            parent-child relationship.
    --Provide opportunities for youth through programs and services in 
            school and after school such as mentoring.
    --Foster high expectation and self-esteem for youth.
    --Prevent drug abuse including underage tobacco and alcohol use.
    --Emphasize the nexus between drugs and crime and violence.
    --Emphasize the connection between substance use and AIDS.
    --Support other drug-related messages and campaigns as determined 
            by ONDCP.
    These criteria have been consistently used to determine whether 
programs submitted by media outlets for pro-bono match consideration 
should indeed qualify for public-service credit. At no time during this 
process did ONDCP--or any person or organization affiliated with the 
media campaign--suggest script changes, nor were any episodes or 
programs resubmitted for reconsideration in exchange for pro-bono match 
credit. Indeed, we have always assumed that any transcripts or programs 
submitted for public-service credit consideration were final products 
and not subject to further change.
    To date, seven networks have submitted programs to ONDCP's 
contractor, Ogilvy & Mather for pro-bono match consideration. Thirty-
nine separate programs (with 130 original episodes and 353 repeats) 
have been assigned a total of $21,820,329 in public-service credit. A 
list of all programs and episodes for which credits were given is 
enclosed at Tab 3.
    ONDCP takes seriously questions about the campaign's pro-bono match 
procedures. There can be no suggestion of federal interference in the 
creative process. Accordingly, in the future, we will only review 
programs for pro-bono match consideration after they have aired. The 
attached January 18 ONDCP press release outlines the new procedures we 
are implementing to guard against any appearance of impropriety.

                   RESULTS OF THE ANTI-DRUG CAMPAIGN

The anti-drug media campaign is surpassing initial expectations
    Phase I.--During the initial twenty-six-week pilot in twelve cities 
(Phase I, January through June 1998), we exceeded our goal of reaching 
90 percent of the overall target audience with four anti-drug messages 
a week.\19\ The campaign's Phase I message delivery rate follows:
---------------------------------------------------------------------------
    \19\ Findings regarding the effectiveness of Phase I were presented 
to Congress in September 1998 and March 1999, see Testing the Anti-Drug 
Message in 12 American Cities: National Youth Anti-Drug Media Campaign 
Phase I (Report No. 1), September 1998 and (Report No. 2, March 1999.
---------------------------------------------------------------------------
            Overall
    Teens 12--17: 95 percent viewed an average of 8.5 messages a week.
    Adults 25--54: 95 percent viewed an average of 7.5 messages a week.
            African-American
    Teens 12--17: 96 percent viewed an average of 9.4 messages a week.
    Adults 25--54: 96 percent viewed an average of 8.4 messages a week.
            Hispanic
    Teens 12--17: 90 percent viewed an average of 5.9 messages a week.
    Adults 25--54: 85 percent viewed an average of 5.8 messages a week.
    We are extremely encouraged to note that significant increases in 
awareness of anti-drug ads occurred among the target audiences. The 
evaluations ONDCP submitted to Congress showed that youth and teens 
demonstrated significant increases in ad recall in the target versus 
the comparison sites--youth increases ranged from 11 to 26 percent, 
teens ranged from 13 to 27 percent. Parents in target sites had an 11 
percent gain in awareness of the risks of drugs and said that the 
campaign provided them with new information about drugs (a 7 percent 
increase). Meanwhile, the number and frequency of PSAs for other 
related social issues increased, demonstrating no interference from the 
paid ad campaign.\20\
---------------------------------------------------------------------------
    \20\ Ibid.
---------------------------------------------------------------------------
    Phase II.--When the anti-drug media campaign was expanded to a 
national audience (Phase II, July 1998 through June 1999), we 
maintained our planned message delivery rates:
            Overall
    Teens 12--17: 95 percent viewed an average of 6.8 messages a week.
    Adults 25--54: 92 percent viewed an average of 4.5 messages a week.
            African-American
    Teens 12--17: 96 percent viewed an average of 7.6 messages a week.
    Adults 25--54: 95 percent viewed an average of 7.2 messages a week.
            Hispanic
    Teens 12--17: 88 percent viewed an average of 4.8 messages a week.
    Adults 25--54: 84 percent viewed an average of 4.8 messages a week.
    The anti-drug campaign's messages also began to influence 
attitudes. The percentage of youth who agreed that the ads ``made them 
stay away from drugs'' increased from 61 percent to 69 percent. The 
percentage reporting they ``learned a lot about the dangers of drugs'' 
from TV commercials also increased from 44 to 52 percent.\21\
---------------------------------------------------------------------------
    \21\ ONDCP submitted an evaluation of Phase II to both 
Congressional Committees on Appropriations. See Investing in our 
Nation's Youth: National Youth Anti-Drug Media Campaign Phase II Final 
Report, June 1999.
---------------------------------------------------------------------------
    Phase III (July 1999-Present).--Our broad-based advertising effort 
continues to exceed planned message delivery rates. As a result of the 
leverage the campaign is providing to other organizations and causes 
through the required pro-bono matches, we are increasing the number 
reach of the campaign.
            Teens 12-17:
    Paid--91 percent viewed an average of 4.4 messages a week.
    Paid & anti-drug match--95 percent viewed an average of 5.2 
messages a week.
    Paid & all match--95 percent viewed an average of 8.3 messages a 
week.
            Adults 25-54:
    Paid--82 percent viewed an average of 3.5 messages a week.
    Paid & anti-drug match--92 percent viewed an average of 3.7 
messages a week.
    Paid & all match--95 percent viewed an average of 5.9 messages a 
week.
    The campaign's pervasive presence has also been manifested in 
increased demand for anti-drug information. Since the national launch 
of the campaign in July of 1998, inquiries received by the National 
Clearinghouse for Alcohol and Drug Information (NCADI) have increased 
dramatically. The number of inquiries received between July 1998 and 
June 1999 increased by 159 percent over the corresponding 1997-1998 
period. NCADI also responded to 102 percent more requests for 
information and distributed more than sixteen million items between 
July 1998 and June 1999. On peak days--which corresponded with specific 
anti-drug campaign events (e.g. an article in Parade magazine, media 
coverage of national launch, and media ``roadblocks'')--requests surged 
by 367 percent over pre-campaign levels. Per month Internet requests 
for substance abuse information have increased tenfold since July 
1998.\22\
---------------------------------------------------------------------------
    \22\ SAMHSA/NCADI briefing to ONDCP Director Barry McCaffrey, 
September 2, 1999.
---------------------------------------------------------------------------
    To date, the campaign has exceeded its pro-bono match requirements; 
we have accomplished 107 percent of the media match at a value of $213 
million. We formed partnerships with seven television networks that 
have produced their own anti-drug PSAs consistent with campaign themes. 
We attained 168 million pro-bono Internet impressions. The campaign's 
strategic messages have been supported in 130 TV programs that 
incorporated science-based anti-drug story lines.
Additional indicators of success
    No child or adult ``influencer'' is being left behind. The campaign 
is reaching minority youth and parents at unprecedented levels, 
delivering $33 million worth of anti-drug messages. By any standard, 
this is the strongest multi-cultural communications effort ever 
launched by the Federal Government; it rivals that of most corporate 
efforts. ONDCP is the largest governmental advertiser in African-
American newspapers. We are now developing campaign materials in eleven 
languages.
    Private sector support is exceeding ONDCP's goals and expectations. 
The anti-drug campaign's target is a one-for-one match; for every 
taxpayer dollar we spend, we require an equal added dollar's worth of 
anti-drug public service, pro bono activity. The campaign's private 
sector match is now at the 109 percent level (or $149 million gross) 
for the broadcast industry (matches of ad time on TV and radio). 
Overall, the corporate match for all campaign efforts is at the 107 
percent level (or $213 million). In addition to the pro bono match, we 
have received over $42 million of corporate in-kind support.
    As we move into an integrated campaign we are reaching young people 
throughout the Internet. The number of campaign Internet advertising 
impressions (ad ``banners'' on web sites) exceeds two hundred million. 
In 1999, ONDCP's campaign site, www.mediacampaign.com was accessed 
446,596 times by 170,456 users. The prevention sites 
www.projectknow.com was accessed 6,483,583 times by 1,647,967 users.

   YOUTH ATTITUDES AND BEHAVIOR HAVE CHANGED SINCE THE LAUNCH OF THE 
                NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

    The campaign is getting the nation's attention and influencing 
drug-related attitudes and behavior. Based on expert analysis of drug-
use trends and media campaign impacts, we did not expect to see 
appreciable impacts on drug use until two years into the campaign. 
However, since the campaign's inception, we have seen noteworthy 
changes in drug-related attitudes and behavior among our youth:
  --In September 1998, we reported to Congress--(Testing the Anti-Drug 
        Message in 12 American Cities: National Youth Anti-Drug Media 
        Campaign Phase I (Report No. 1)--that the campaign's ads were 
        stimulating discussion between parents and children.
  --In June 1999, we reported to Congress--(Investing in our Nation's 
        Youth: National Youth Anti-Drug Media Campaign Phase II Final 
        Report)--that the percentage of teens who said they had learned 
        ``a lot'' from TV commercials that ``drugs are bad'' increased 
        from 44 to 52. We also noted a 12 percent increase in the 
        percentage of youth that agreed the ads made them stay away 
        from drugs (an increase from 61 to 69 percent).
    Additionally, various recent national surveys indicate that 
adolescent anti-drug attitudes have stiffened and some drug-use rates 
have declined.
  --Adolescent drug use declined 13 percent between 1997 and 1998 (1998 
        National Household Survey on Drug Abuse).
  --The percentage of 13-18 year olds strongly agreeing with the 
        statement ``kids who are really cool don't use drugs,'' 
        increased from 35 percent in 1998 to 40 percent in 1999 
        (Partnership for a Drug-Free America, 1999 Partnership Attitude 
        Tracking Study).
  --The teenage belief that ``most people will try marijuana sometime'' 
        declined to 35 percent in 1999, from 40 percent in 1998 and 41 
        percent in 1997 (Partnership for a Drug-Free America, 1999 
        Partnership Attitude Tracking Study).
  --In 1999, 63 percent of teens reported parents were talking to them 
        about the risks of drug use, up from 53 percent in 1998 (Center 
        on Substance Abuse and Addiction, 1999 Back to School Survey).
  --The number of young people reporting that their schools were drug 
        free increased from 31 percent in 1998 to 44 percent in 1999 
        (Center on Substance Abuse and Addiction, 1999 Back to School 
        Survey).

                   TRANSPARENCY OF THE MEDIA CAMPAIGN

    Everything about this campaign--including the pro-bono match--has 
been conducted openly with congressional oversight, news coverage, 
publicity, and outreach to the media. There were three congressional 
hearings in 1999 on the subject of the media campaign, so the notion 
that this project is being conducted ``in secret'' is inaccurate. We 
have also written opinion editorials explaining all aspects of the 
campaign; these pieces have been published in newspapers, magazines, 
and journals throughout the country. Countless press releases, news 
conferences, and events with the President and congressional leadership 
were devoted to this topic as was much TV and radio coverage and a 
website (www.mediacampaign.org) that was accessed 446,596 times in 
1999.
Excerpts of national coverage of the pro-bono match
    Advertising Age ``Networks `donate' anti-drug messages'' (July 6, 
1998)
    ``. . . broadcast media are jumping to take the drug agency's offer 
of trading its large ad budget for an equal amount of free time, 
including not only spots but anti-drug programming and other 
activities.''
    Los Angeles Times ``Ad Plan: Your Tax Dollars on Drugs'' (August 
20, 1998)
    ``The accompanying matches are not all straight gifts of time. 
Credit is also awarded, for example, for building an Internet site. Fox 
Family Network may count as donations episodes of its entertainment 
programs that carry an anti-drug theme . . .''
    USA Today ``White House anti-drug unit garners fortune in free 
ads'' (November 2, 1998)
    ``. . . the government is demanding more than it's paying for. Its 
requirement: that media match its purchase with free air time or space 
or other public service efforts. For the networks, donated commercial 
time counts. Talk show time can count. So do White House-approved 
scripts that promote the anti-drug theme.''

                               CONCLUSION

    Mr. Chairman, Director McCaffrey asked me to reassure you that the 
Anti-Drug Media Campaign has complied with all applicable laws and 
carefully taken into account congressional intent. We are proud that 
the media campaign is bringing to bear the scientific information that 
results from the half billion dollars the Federal Government invests on 
drug abuse research through the National Institute on Drug Abuse every 
year.
    As you know, the primary goal of the National Drug Control Strategy 
is to ``educate and enable America's youth to reject illegal drugs as 
well as alcohol and tobacco.'' Over the past four years, federal 
spending on prevention has increased by 55 percent. This public-health 
communications campaign is the most visible element of the national 
response to the juvenile drug-use crisis. These extensive prevention 
efforts are beginning to bear fruit. We are convinced that if we 
continue to emphasize drug prevention, juvenile drug-use rates will 
drop further. Thank you again for your support of our efforts to reduce 
drug use and its consequences in America.

    Senator Campbell. We are going to take a 10 or 15-minute 
recess while we run over and vote. We will then hear from Ms. 
Conlon, and I apologize for having you sit so long, Ms. Conlon, 
and from Mr. Bonnette, and then we will go to Mr. Forbes. With 
that, we will stand in recess for about 10 minutes.
    My friends, if we could take our seats, the committee is 
back in session and we will not have any more interruptions. 
That was the last vote, so we will be able to finish this. I 
hope, Mr. Levitt, you will be able to stay around, although I 
have no further questions. I do not think Senator Dorgan does. 
I hope you will stay around to hear the remaining testimony, if 
you can.
    We will now go to Ms. Conlon, the President of the Ad 
Council. Welcome.


STATEMENT OF PEGGY CONLON, PRESIDENT, THE ADVERTISING 
            COUNCIL, INC.
    Ms. Conlon. Mr. Chairman, thank you. Thank you so much for 
inviting us to participate in this testimony today.
    As President of the Advertising Council, I commend the 
Senate Appropriations Subcommittee, the Office of National Drug 
Control Policy, and the Partnership for a Drug-Free America for 
their foresight in the creation of an unprecedented National 
Youth Anti-Drug Media Campaign. Thus far, the public service 
match component of the campaign is an unqualified success. It 
has reinvigorated public service advertising despite a highly 
competitive media environment, and the media is rising to the 
challenge. It is because of this PSA match that this campaign 
is the most efficient use of leveraged government funding that 
I have ever seen.
    For 58 years, the Ad Council has served as the nation's 
leading provider of public service advertising. Since we were 
founded by President Roosevelt to help engage Americans in the 
World War II effort, our media messages have moved the needle 
on such behaviors as drunk driving, crime prevention, and 
environmental protection.
    Four years ago, we committed our resources to supporting 
America's children and families, and we were delighted when the 
ONDCP delighted us to be a full partner in an innovative media 
campaign which is consistent with this mission.
    The Ad Council serves the ONDCP media campaign in several 
ways. Primarily, we oversee a media match task force that vets 
national PSAs for participation in the match program. Together 
with ONDCP, Partnership for a Drug-Free America, and other 
members of the task force, including Departments of Education, 
Justice, and Health and Human Services, the Ad Council was 
involved from the start in recommending and designing the 
guidelines of the media match component. The guidelines apply 
to the national PSA match as well as the programming element, 
and they form the basis of the media match program at the local 
level. We have also reached out to thousands of community 
organizations with an invitation to participate in the match.
    The Ad Council's experience to date with the ONDCP media 
campaign has been exceptionally positive. The match component 
has revitalized public service as we know it. It has increased 
the awareness of community-based programs that aid in youth 
drug prevention by encouraging early action steps, such as 
mentoring, greater parental involvement, after-school programs, 
and raising young people's self-esteem. These programs are 
receiving unprecedented media exposure. In fact, since the 
launch of the campaign, over 250,000 television and radio on-
air PSA placements have been donated by the media on behalf of 
45 national nonprofit and government organizations.
    Initial concerns that the introduction of the ONDCP match 
might supplant the media's existing support of public service 
have proved to be unfounded. Beyond the match program, both 
qualifying and non-qualifying Ad Council PSAs have received 
equal support from the media.
    In addition, an unintended benefit of the match is the 
improvement of PSA audience reach by opening up highly-rated 
television dayparts in which public service was traditionally 
underrepresented. The Ad Council's independent monitoring 
service has reported that in the 5 years prior to the match, 
only 40 percent of donated media toward Ad Council PSAs were in 
desirable dayparts, leaving the majority of PSAs to be aired 
between the hours of 1:00 a.m. and 6:00 a.m. Since the match, 
the media donation of desirable dayparts has dramatically 
increased, from 40 percent to 70 percent of total donated 
media.
    Again, the PSA media match was well conceived and has been 
executed by the ONDCP in the most inclusive manner and with 
great success. It is a sustainable model that involves the 
government, the media, and local communities all joined in a 
common objective, to keep our kids drug-free.
    On behalf of the Ad Council, I would like to thank all the 
partners involved for their continued support of this 
unprecedented effort. With great pride, we will continue to 
support this campaign in any capacity. Thank you.
    Senator Campbell. Thank you. I appreciate your testimony. I 
have a couple of questions, but I will go to our next witness 
before I ask those questions. I would like to repeat that, for 
me, this has never been a question of whether it works or not. 
I think it probably does work, as any advertising does, whether 
it is subliminal or not. It is a question of propriety, of 
transparency, and whether it sets a precedent. Things of that 
nature is what this committee is really concerned about.
    [The statement follows:]

                   Prepared Statement of Peggy Conlon

    As President of The Advertising Council, I commend the Senate 
Appropriations Sub-Committee, the Office of National Drug Control 
Policy and the Partnership For a Drug Free America for their foresight 
in the creation of an unprecedented national youth anti-drug media 
campaign. Thus far, the public service match component of the campaign 
is an unqualified success. It has reinvigorated public service 
advertising--despite a highly competitive media environment--and the 
media is rising to its challenge. It is because of the PSA match that 
this campaign is the most efficient use of leveraged Government funding 
that I have ever seen.
    For 58 years, the Ad Council has served as the nation's leading 
provider of public service advertising. Since we were founded by 
President Roosevelt to help engage Americans in the World War II 
effort, our media messages have moved the needle on such behaviors as 
drunk driving, crime prevention and environmental protection. Four 
years ago, we committed our resources to supporting America's children 
and families; and we were delighted when the ONDCP invited us to be a 
full partner in an innovative media campaign which is consistent with 
that mission.
    The Ad Council serves the ONDCP media campaign in several ways. 
Primarily, we oversee a media match task force that vets national PSAs 
for participation in the match program. Together with ONDCP, 
Partnership For A Drug Free America, and other members of the task 
force (including the Departments of Education, Justice and Health and 
Human Services), the Ad Council was involved from the start in 
recommending and designing the guidelines of the media match component. 
The guidelines apply to the national PSA match as well as the 
programming element, and they form the basis of the media match program 
at the local level. We have also reached out to thousands of community 
organizations with an invitation to participate in the match.
    The Ad Council's experience to date with the ONDCP media campaign 
has been exceptionally positive. The match component has revitalized 
public service as we know it. It has increased the awareness of 
community-based programs that aid in youth drug prevention by 
encouraging early action steps such as mentoring, greater parental 
involvement, after-school programs and raising young people's self-
esteem. These programs are receiving unprecedented media exposure. In 
fact, since the launch of the campaign, over 250,000 television and 
radio on-air PSA placements have been donated by the media on behalf of 
45 national non-profit and government organizations.
    Initial concerns that the introduction of the ONDCP match might 
``supplant'' the media's existing support of public service have proved 
to be unfounded. Beyond the match program, both qualifying and 
nonqualifying Ad Council PSAs have received equal support from the 
media. In addition, an unintended benefit of the match is the 
improvement of PSA audience-reach by opening up high-rated television 
dayparts, in which public service was traditionally underrepresented. 
The Ad Council's independent monitoring service has reported that in 
the five years prior to the match, only 40 percent of all donated media 
towards Ad Council PSAs was in desirable dayparts--leaving the majority 
of PSAs to be aired between the hours of 1:00 a.m. and 6:00 a.m. Since 
the match, the media's donation of desirable dayparts has dramatically 
increased from 40 percent to 70 percent of total donated media.
    Again, the PSA media match was well conceived and has been executed 
by the ONDCP in a most inclusive manner and with great success. It is a 
sustainable model that involves the Government, the media and local 
communities--all joined in a common objective to keep our kids 
drugfree. On behalf of the Ad Council, I would like to thank all the 
partners involved for their continued support of this unprecedented 
effort. With great pride, we will continue to support this campaign in 
any capacity.


STATEMENT OF RICHARD BONNETTE, PRESIDENT, PARTNERSHIP 
            FOR DRUG FREE AMERICA
    Senator Campbell. We will go now to Mr. Bonnette, please.
    Mr. Bonette. Good morning, Mr. Chairman. Let me begin by 
thanking you and Senator Dorgan and all the members of the 
committee for your support of the National Youth Anti-Drug 
Media Campaign. Allow me to also thank General McCaffrey, 
Director of the Office of National Drug Control Policy. His 
leadership has been truly indispensable for this effort.
    As you know, the problem of drug abuse persists across the 
country. Millions of children, teenagers, and their parents and 
other adults deal with this problem every day. It is, in fact, 
the number one concern parents have about their children and 
the number one concern among teenagers, as well.
    The alarming increase in adolescent drug use since 1991 is 
one reason why Congress decided to support this Anti-Drug 
Campaign. I come here today, Mr. Chairman, very pleased to 
report to you that the campaign is on track and is giving us 
every reason to be optimistic.
    As you know, the Partnership for a Drug-Free America 
originated in the advertising industry. Our roots are in 
advertising, marketing, public relations, consumer research, 
and the media industries. Today, we have a small staff of about 
30 people in New York and a network of hundreds of volunteers 
around the country. The strength of the partnership is the 
reservoir of advertising talent that creates our work, the same 
talent that is behind the most creative, most effective 
commercial ad campaigns in the marketplace today. We tap into 
this talent, talent that helps sell Pepsi-Cola, Dell computers, 
and Dodge trucks, not to sell but to unsell illegal drugs.
    Before joining the Partnership in 1989, I spent 25 years in 
the advertising industry, 19 of them with BBDO Worldwide, one 
of the largest agencies in the world, and at BBDO, I was a 
member of both their board of directors and their executive 
committee. One of the elements that made the concept of the 
Anti-Drug Media Campaign so attractive to Congress was access 
to this private sector creative talent. Instead of one 
advertising agency creating ads for this campaign, literally 
dozens of agencies create work for the partnership, which is 
then donated to the Anti-Drug Media Campaign.
    That essentially is our role, managing the creative 
pipeline. We provide the advertising that is at the heart of 
this effort, and while the campaign now covers production costs 
for our advertising, the most expensive and critical elements 
of each ad, the services of the actual creative talent 
producers, copy writers, directors, and actors are all donated 
to this effort. With the cost of creating a 30-second 
television commercial averaging about $300,000, the advertising 
industry has been and continues to be a tremendous resource to 
this campaign. The credit here, Mr. Chairman, goes to the 
agencies themselves, not to the Partnership, because it is they 
who actually do the work.
    May I remind the committee that while we have devoted 
significant resources and the full heart and soul of the 
Partnership to servicing this campaign, we receive no Federal 
funding for our role in this effort. We participate in this 
campaign because we are dedicated to this cause and we believe 
deeply in this model. That is our bottom line.
    Mr. Chairman, as you know, the strategic rationale behind 
this campaign is quite simple. It is the belief in the power of 
research-based advertising to persuade children and teenagers 
not to use drugs and it is the acknowledgement that to tap into 
the full power of mass media in this endeavor, we must employ 
paid advertising to get the job done.
    In the past, we have witnessed the awesome power of mass 
media on the drug problem. In the late 1980s, unprecedented 
support from the media contributed to dramatic and long-lasting 
results, long-lasting changes in the marketplace. For example, 
since 1985, among those 18 and older, regular use of cocaine is 
down by 75 percent and is holding, and regular use of any 
illicit drug is down by 50 percent and holding. Today, there 
are 9.7 million fewer Americans using drugs on a regular basis. 
It was the media, Mr. Chairman, who accelerated the rate of 
attitudinal shifts that made this happen.
    We have also witnessed what happens when mass media focus 
on the drug problem dissipates. As news and mass media 
attention on drug abuse faded away in the early 1990s and as 
media exposure for anti-drug advertising declined steadily, 
anti-drug attitudes began to erode. Subsequently, we witnessed 
the first increase in adolescent drug use since 1979, and that 
increase, as you know, continued for the better part of the 
decade, driven by weaker and weaker attitudes toward drugs.
    That is when General McCaffrey and we at the Partnership 
came to Congress seeking support for this National Youth Anti-
Drug Media Campaign. We concluded that we would need to pay for 
media exposure to truly change attitudes and behavior.
    We are now, Mr. Chairman, about a year and a half into the 
national phase of this campaign, and based on what we are 
seeing through various national tracking studies, we believe 
the campaign is having a very positive impact. For the first 
time since teen drug use turned around for the worse in the 
early 1990s, drug-related attitudes among children and 
teenagers are now changing for the better and by significant 
margins. Most remarkable, perhaps, is that fewer and fewer 
teens see drugs as socially acceptable in their peer groups and 
in pop culture.
    I would like to submit for the record a summary of our 
latest national tracking study on drug use.
    Senator Campbell. Without objection, that complete study 
will be included in the record.
    Mr. Bonette. Thank you. Fewer teens now associate drugs 
with the concept of ``coolness.'' Fewer teens now see drugs 
closely associated with role models, and more teens say drugs 
are not required to ``fit in.'' In marketing terms, these are 
significant shifts.
    Another telling finding is this. More and more children and 
teenagers are aware of anti-drug advertising. Message recall is 
up dramatically. In just 1 year, the number of teenagers 
reporting seeing anti-drug advertising every day or more jumped 
from 32 to 45 percent. More teens say they are learning a lot 
about the risk of drugs from anti-drug advertising, and the 
percentage of parents talking with their children frequently 
about drugs has increased from 44 to 57 percent, again, in just 
1 year.
    To a marketing professional, these are enormous positive 
shifts in a relatively short period of time, and importantly, 
Mr. Chairman, we also see drug use leveling off for the last 1 
to 2 years.
    In terms of the changes recorded in the data thus far, we 
are exactly where we expected to be with this campaign. Any 
consumer marketer would be delighted to see these results in 
just 18 months into a marketing effort. Attitudes are changing 
in significant ways and this bodes very well for the future, 
because as you know, attitudes change behavior.
    At this juncture in a marketing campaign with ``customers'' 
moving in the direction of your product and/or service, a 
marketing manager would do one thing and one thing only, pour 
it on. When the market begins to move in a favorable direction, 
it calls for sustained investment. That, Mr. Chairman, is 
exactly where the Anti-Drug Media Campaign is today.
    Relevant to the recent press coverage regarding the 
National Youth Anti-Drug Media Campaign, the Partnership has 
not been involved on a daily basis with the match component of 
the campaign. We have, however, all had experiences with news 
stories that are not entirely accurate. Surely this is not the 
first time and it will not be the last.
    In the past, networks have been criticized for glamorizing 
drugs in television shows. Over the past few weeks, they have 
been criticized for including anti-drug story lines and themes 
in their shows. From our vantage point, the networks should be 
applauded and applauded loudly for working voluntarily with the 
campaign. Everything about this campaign from day one has been 
openly discussed and publicized, including the option for 
networks to match media buys through programming.
    All in all, with the paid advertising portion of this plan, 
with the match component and with added value leveraged through 
story lines and programming, taxpayers are getting an enormous 
value for their investment in this campaign and it is now 
paying off. With the continued support of Congress, we believe 
this program will prove to be one of the most cost-efficient, 
cost-effective investments ever made by the Federal Government 
in any effort to reduce demand for illegal drugs.
    Thank you, Mr. Chairman, for this opportunity to testify 
today, and thank you and the committee for your support of the 
National Youth Anti-Drug Media Campaign.
    [The statement follows:]

               Prepared Statement of Richard D. Bonnette

    Good morning, Mr. Chairman. Thank you for the opportunity to 
testify before you and the members of the Subcommittee on Treasury and 
General Government. Let me begin by saying thank you, Mr. Chairman, to 
you, Senator Dorgan and to all members of the committee for your 
support of the National Youth Anti-Drug Media Campaign.
    I also want to let you know, Mr. Chairman, how exceptionally 
grateful we all are for the leadership and support of Barry McCaffrey, 
director of the Office of National Drug Control Policy. His leadership 
has been indispensable to this effort.
    As you know, Mr. Chairman, the problem of illegal drugs persists 
across the country. In the real lives of real people, millions of 
children, teenagers and their parents are dealing with this problem 
everyday. It is, in fact, the number one concern parents have about 
their children, and the number one concern among teenagers as well. 
While media attention focusing on drugs comes and goes, drug abuse 
remains front and center for millions of families, families that are 
very concerned about a multitude of influences bearing down and 
threatening core family values. I know that this is a primary concern 
of yours, Mr. Chairman, as it is for us as well. And the linkage to 
substance abuse is undeniable.
    The alarming increase in adolescent drug use since 1991 is one 
reason why Congress decided to support the National Youth Anti-Drug 
Media Campaign. In our minds, this program--with your continued 
support--will prove to be one of the most cost-efficient investments 
designed to reduce demand for drugs that the Federal Government will 
ever make. And I come here today, Mr. Chairman, very happy to report to 
you that the campaign is on-track and making definitive inroads.
    In my opening comments, I'd like to do a few things for the 
committee:
  --Quickly and concisely define the Partnership's role in the National 
        Youth Anti-Drug Media Campaign;
  --Describe the strategic rationale that set this historic campaign in 
        motion; and
  --Comment on the progress of the campaign, and place that evaluation 
        in marketing and advertising terms.
    As I conclude, I will leave you with our recommendations regarding 
the campaign, as well as our thoughts about recent media attention 
focusing on this effort.
The Partnership for a Drug-Free America
    For members of the committee not familiar with the Partnership, we 
like to describe ourselves this way: We are not a non-profit 
organization that decided to try advertising. Rather, we are 
advertising professionals who decided to apply our expertise in 
marketing and strategic communication in the non-profit arena. Our 
roots are in advertising, marketing, public relations, research and the 
media industries.
    The Partnership began in 1986 with seed money from the American 
Association of Advertising Agencies. Today, we have a small staff of 
about 30 people, based in New York, and a network of hundreds of 
volunteers from the communications industry, based throughout the 
country. The strength of the Partnership is the reservoir of 
advertising talent that creates our work--the same talent that's behind 
some of the biggest commercial ad campaigns in the marketplace today. 
We tap this very talent--the talent that helps sell Pepsi Cola, Dell 
computers and Dodge trucks--not to sell, but to unsell--to unsell 
illegal drugs, which from a marketing perspective might be thought of 
as a line of commercial products that attract a significant number of 
young customers.
    Before joining the Partnership in 1989, I myself spent many years 
in the advertising industry--25 years, in fact, 19 of them at BBDO 
Worldwide, one of the largest agencies in the world. At BBDO, I was a 
member of both the board of directors and the executive committee.
The Partnership's Role in the National Youth Anti-Drug Media Campaign
    I tell you all of this, Mr. Chairman, to remind the committee why 
Congress decided to fund the National Youth Anti-Drug Media Campaign. 
The Congress decided to do so, at least in part, because the Congress 
understood that the campaign would benefit from the Partnership's 12 
years of experience in the marketplace; the campaign would be driven by 
strategic counsel provided by marketing professionals; and the campaign 
would benefit enormously by tapping into the Partnership's creative 
pipeline. Instead of one advertising agency creating ads for this 
campaign, dozens of advertising agencies create work for the 
Partnership, which is then donated to the National Youth Anti-Drug 
Media Campaign. That, essentially, is our role in the campaign--
managing the creative pipeline. We, through the generosity of leading 
ad agencies, provide the advertising that at the heart of this effort.
    While the Federal resources now cover production costs for our 
advertising, the most expensive and critical elements that go into the 
creative development process--the services of the actual creative 
talent, producers, copywriters, directors and actors--are all donated 
to this effort.
    On average, creating a 30-second television commercial costs about 
$300,000 in the marketplace, Mr. Chairman, so the contribution from the 
advertising industry has been--and continues to be--significant. The 
credit here, Mr. Chairman, goes to the agencies themselves, not the 
Partnership. Our role is to facilitate the creation of the best 
advertising the industry can produce, but the agencies actually do the 
work. May I remind the committee that while we have devoted tremendous 
resources to serving the National Youth Anti-Drug Media Campaign, we 
receive no Federal funding for our role in this effort. We participate 
in this campaign because we're dedicated to this cause, and we believe 
deeply in this model. That's our bottom line. We do this for our 
mission. Nothing more. Nothing less.
The Strategic Rationale Behind the National Youth Anti-Drug Media 
        Campaign
    Mr. Chairman, the success of any professionally managed marketing 
campaign depends on a number of variables, none more important, 
perhaps, than having the right message delivered to the right target 
audience consistently over time.
    The message--or creative strategy--of an ad evolves from consumer 
research. This is where great advertising begins. From research, we 
develop different communication strategies to reach our consumers. From 
research, we know that speaking with different kids about different 
drugs in different ways, based on their attitudinal makeup, helps us 
deliver messages that resonate with the target audience.
    Delivering messages effectively also requires exposure--the right 
exposure, and enough exposure. Creative approach and exposure levels 
are interdependent. If your message is off strategy, it won't resonate 
with the target audience, regardless of the millions invested in buying 
prime media exposure. The opposite is true as well. Even if your 
campaign speaks with precision to the target audience, it will never 
produce results if the campaign isn't running with the reach and 
frequency required to register with any given target audience.
    The latter point summarizes the strategic rationale behind the 
National Youth Anti-Drug Media Campaign. During the late 80s, a 
resounding anti-drug chorus coming through mass media contributed to 
dramatic changes in drug use. The country heard a loud and consistent 
message about drugs from government, the private sector, the news 
media, from church and civic leaders, and in part, from anti-drug 
advertising. During this period, I might note, the Partnership's 
advertising was reaching its peak levels of exposure. In addition to 
mass media's focus on drugs, drug-related deaths of celebrities and 
athletes drove that message home deeper. During this time, consumer 
attitudes about drugs changed for the better and drug use declined 
steadily. As a result, the country changed.
    Real and long-lasting change registered in that generation's 
attitudes about drugs, resulting in dramatic changes in drug use. Since 
1985, among those 18 and older, regular use of cocaine is down by 75 
percent and holding. Regular use of any illicit drug, again among those 
18 and older, is down by 50 percent and holding. Today, in America, as 
a result of this attitudinal shift, there are 9.7 million fewer 
Americans using drugs on a regular basis. That's close to 10 million 
fewer drug users in the country today.
    But the 90s, as you know Mr. Chairman, changed everything. Dramatic 
economic changes came to the media industry as the complexion of the 
industry changed itself: Hundreds of new cable channels, new television 
networks and the emergence of the Internet as a new and dynamic medium 
all created a new and intense competition for viewers. The impact of 
all of this on public service advertising was anything but good: The 
media industry--which has donated more than $3 billion in media 
exposure to our campaign alone--essentially told us that if they were 
going to stay competitive in an entirely new economic environment, they 
simply could not give our campaign the type of exposure required to 
make a difference in the marketplace.
    As media exposure dedicated to the Partnership's ad campaign began 
to decline in the early 90s, concurrent with a remarkable decline in 
news and other mass media focusing on the drug issue, anti-drug 
attitudes began to erode, first among 8th graders--and later 10th and 
12th graders. A year later, in 1992, we witnessed the first increase in 
adolescent drug use since 1979. As media support for the Partnership's 
advertising continued to erode, dropping by more than $100 million a 
year in exposure, drug-related attitudes continued eroding as well, and 
drug use among children climbed steadily.
    Mr. Chairman, while it is difficult to quantify, the correlative 
data strongly suggests some relationship between drug trends and our 
media-based prevention effort.
    This, in essence, represents why we came to the Congress with 
Director McCaffrey seeking support for the National Youth Anti-Drug 
Media Campaign. It was our estimation that media support for all public 
service advertising would continue to erode over time, at least at the 
national level. For our campaign to create real, measurable and long-
lasting change in the marketplace, we came to the conclusion that we 
would need to pay for media exposure, just like a commercial 
advertiser, and aggressively compete for the attention of our target 
audiences.
    After months of deliberation and discussion, the Congress decided 
to support the National Youth Anti-Drug Media Campaign at the initial 
level of $195 million--which, as you know, represents about one percent 
of the Federal Government's drug budget. The primary use for this 
Federal money would be to secure the one thing our advertising campaign 
could never secure, and that is guaranteed, prime media exposure for 
our messages--in other words, the right media exposure, for the right 
messages, designed to reach the right target audiences, consistently 
over time.
Progress of the National Youth Anti-Drug Media Campaign
    We are now, Mr. Chairman, about a year and a half into the national 
phase of the National Youth Anti-Drug Media Campaign. Based on what 
we're seeing through various national tracking studies, we believe the 
campaign is on track and making definitive in-roads.
    For the first time since drug use turned around for the worse in 
the early 90s, drug-related attitudes among children and teenagers are 
changing for the better, and by significant margins. More children are 
looking at drugs with disdaining eyes. Most remarkable, perhaps, is 
that fewer and fewer teens see drugs as socially acceptable in their 
peer groups and in pop culture.
    I would like to submit for the record, Mr. Chairman, a summary of 
our latest national tracking study on drug use, released November 22, 
1999. Fewer teens now associate drugs with the concept of ``coolness.'' 
Fewer teens now see drugs closely associated with role models. And more 
teens say drugs are not required to fit in. For example, Mr. Chairman, 
the number of teens agreeing strongly with the statement ``Marijuana 
users are popular'' declined from 17 to 10 percent. In marketing terms, 
this is a huge decline.
    Another very telling finding is this: More and more children and 
teenagers are aware of anti-drug advertising. Message recall is up 
dramatically: In just one year, the number of teenagers reporting 
seeing anti-drug advertising every day or more jumped from 32 to 45 
percent. More teens say they're learning a lot about the risk of drugs 
from anti-drug advertising. And the percentage of parents talking with 
their children frequently about drugs has increased from 44 to 57 
percent, again in just on year.
    Our survey--along with studies by the University of Michigan and 
the National Institute on Drug Abuse--also show drug use leveling off 
over the last one to two years. And in some categories, we're seeing 
actual declines in drug use for the first time since the early 1990s. 
Statistically significant declines were found in teen use of crack, 
cocaine, methamphetamine and inhalants. We see a leveling in marijuana 
use, and in some measures a decline, plus stabilization in teen use of 
LSD and heroin.
    Mr. Chairman, these attitudinal shifts and usage shifts are 
concurrent with the launch of the National Youth Anti-Drug Media 
Campaign.
                            RECOMMENDATIONS

    As you know, Mr. Chairman, drug trends shift like tides--slowly, 
gradually changing direction. Once pointed in a new direction, then 
change occurs with greater force and intensity, but tidal shifts are 
slow and take time.
    In terms of the changes recorded in the data thus far, we're 
exactly where we expected to be with the campaign. Any brand or product 
manager would be delighted to see these results just 18 months into a 
marketing effort. Attitudes are changing in significant ways. This 
bodes very, very well for the future, because as you know, Mr. 
Chairman, attitudes drive behavior. Again, Mr. Chairman, allow me to 
underscore that these changes are concurrent with the inception of the 
National Anti-Drug Media Campaign.
    At this juncture in a marketing campaign, Mr. Chairman, a marketing 
manager would do one thing, and only one thing: Pour it on. When 
business begins to move in a favorable direction, it calls for 
sustained investment to move consumers in your direction. That is 
exactly where the National Youth Anti-Drug Media Campaign is today.
    As advertising and marketing professionals with no financial stake 
in this campaign, we urge you, Mr. Chairman, members of the committee 
and the entire Congress to maintain support for this effort. We at the 
Partnership support this campaign 100 percent, and will continue 
delivering the best advertising the industry can produce to the effort.
Recent Press Coverage Regarding the National Youth Anti-Drug Media 
        Campaign
    I am sure, Mr. Chairman, that my colleagues from ONDCP will comment 
extensively on the recent press coverage regarding the National Youth 
Anti-Drug Media Campaign. The Partnership has not been involved 
directly with the match component of the campaign. We have, however, 
all had experiences with news stories that are not entirely accurate. 
Surely, this is not the first time, nor will it be the last.
    In the past, networks have been criticized for glamorizing drugs in 
television shows. Over the few weeks, they've been criticized for 
including anti-drug storylines and themes in their shows. Honestly, Mr. 
Chairman, it is sometimes very difficult to understand the swing of the 
pendulum.
    From our vantage point, the networks should be applauded--and 
applauded loudly--for working voluntarily with the campaign. The 
campaign embodies smart, sophisticated marketing techniques to get 
persuasive messages about the dangers of drugs--our ``product''--placed 
in prime media exposure. It's a smart approach that recognizes the 
economic pressures facing the media industry, and the government's need 
to leverage value for the taxpayer. Everything about this campaign, 
from day one, has been openly discussed and publicized, including the 
option for networks to match media buys through programming.
    While legitimate concerns have been raised about government 
intervention in mass media, those concerns would surely resonate if 
such involvement promoted socially-destructive ideas, like bigotry, 
war, sexual discrimination, etc. But we're talking about tapping the 
full power of mass media to dissuade kids from wrecking their lives 
with drugs. Let's hope we have not lost sight of the fact that most 
people believe this is a good thing to pursue.
    In light of the recent flurry of media attention surrounding the 
campaign, it's important to place in context the various elements of 
the National Youth Anti-Drug Media Campaign. At the core of the 
campaign is a straight-out media buy of advertising. The media is then 
asked to match each government-sponsored buy dollar-for-dollar. And 
from day one, the campaign has always allowed this to be done either 
through advertising or in other creative ways (like including anti-drug 
storylines in various programs). ONDCP tells us more than 80 percent of 
the match has been met through additional advertising.
    All in all, Mr. Chairman, with the paid advertising portion of this 
plan, with the match component and with added value leveraged through 
storylines and programming, the taxpayers are getting an enormous value 
for the investment--for your investment--in the National Youth Anti-
Drug Media Campaign.
    Most importantly, Mr. Chairman, that investment is paying off: the 
campaign is on track and making definitive inroads. With the continued 
support of your and the committee, we believe this program will prove 
to be the single most cost-efficient, cost-effective investment ever 
made by the Federal Government in any effort to reduce demand for 
drugs.
    Again, Mr. Chairman, we've not reached a critical juncture in the 
campaign. Attitudes are shifting in the right direction. Drug use among 
teenagers has, at long last, leveled off. The time is now to maintain 
exposure levels for the campaign so attitudes change further, enabling 
a decline in use. With your continued support, and the continued 
stewardship of the campaign, we are very confident that the National 
Youth Anti-Drug Media Campaign will produce historic, long-lasting 
results and become a model approach to this problem for the nation.
    Thank you, Mr. Chairman, for the opportunity to testify today, and 
thank you and the committee for your support of the National Youth 
Anti-Drug Media Campaign.

    Senator Campbell. Thank you, Mr. Bonnette and Ms. Conlon 
for your testimony. I commend both of you for the work your 
organizations have done on trying to reduce youth drug use.
    I do not know either one of you well, and you probably do 
not know me, but I grew up on what you might call the wrong 
side of the tracks, in a lot of trouble, running with gangs, 
high school dropout, kind of the whole thing. And although I 
never experimented with drugs, thank the Lord for taking care 
of me on that, I had a lot of friends that really got into it. 
It is not new. It has been around for an awful long time. I 
have been around for a long time. It has been around for years, 
but the awareness certainly of the dangers of it has been 
brought to light because of organizations and the concentrated 
and committed effort of organizations like yours, and I 
certainly applaud you for that.
    I have just one or two questions for each one of you, but I 
also want you to know, all three of you, that this committee 
hearing is not an indictment of General McCaffrey. We have 
worked with him on a number of issues. I have attended drug 
courts with him, which was part of the things he wanted to 
develop. I have been involved with him in his effort to try to 
provide money for the United States Olympic Committee. Having 
been a former Olympian myself, to try to reduce the use of 
drugs in these same people you are using as role models for our 
youngsters. We certainly, I and Senator Dorgan and the whole 
committee, was really instrumental in trying to find the money 
for the drug programs, so I just want that known on the record. 
Certainly, we are not criticizing him, but Harry Truman said it 
best when he said, ``The buck stops here,'' and it is on his 
desk.
    Let me just ask you a question or two. I might also say 
that, from my perspective, future funding for the media program 
is not in jeopardy. I am going to support it. I am sure Senator 
Dorgan will support it. But I am going to look for language 
that is going to set some parameters about how we use that 
money, to try to clarify this, what we find ourselves in now.
    Ms. Conlon, let me ask you just a couple of things. I am 
not totally sure we are getting our money's worth for this. 
Maybe we are. The program has only been in effect about a year 
and a half, I think Mr. Bonnette said, but the total program 
has been in effect several years longer than that.
    I have watched some of these programs and I have seen some 
of those subliminal messages. I have seen them myself. But 
after I watch those programs, when I do it rarely, because I 
just do not have the time, I do not remember them from Adam. 
But I will tell you, the thing that I can remember the most 
that was ever done through the Anti-Drug Campaign was the paid 
purchased ad using fried eggs. Do you remember that one?
    Ms. Conlon. Of course.
    Senator Campbell. This is your brain on drugs. I do not 
know of anybody that does not remember that one. That was a 
paid ad. We remember that.
    Ms. Conlon. That is true.
    Senator Campbell. So when we are told that these new 
methods, the subliminal method, is more effective, well, it 
might be with somebody, but it darn sure was not with me, so I 
just wanted to make that statement.
    Let me ask you, do you know of the criteria that is used 
when we do this match, the credit match? Are you involved in 
that?
    Ms. Conlon. Yes. The Ad Council is the organization working 
with the Partnership, ONDCP and others, that put together the 
criteria that Mr. Levitt----
    Senator Campbell. That criteria is printed somewhere and in 
a booklet somewhere?
    Ms. Conlon. Absolutely. We distribute that to all of the 
organizations that apply to be part of the match, yes, sir.
    Senator Campbell. Let me go to Mr. Bonnette for one 
question, too. Are you involved in determining which ads are 
run in which markets?
    Mr. Bonette. No, we are not, sir. We provide Ogilvy, who 
distributes the ads, with whatever inventory they might need 
conforming with the strategy needs.
    Senator Campbell. So you deal with the creative side of it 
more?
    Mr. Bonette. Right.
    Senator Campbell. I see. Senator Dorgan, did you have some 
questions for these two witnesses?
    Senator Dorgan. Mr. Chairman, I regret I was delayed on the 
floor of the Senate. Let me thank them for appearing, and I do 
not have specific questions. I would like to be able to offer 
some questions in writing following the hearing.
    Senator Campbell. Yes. Other members of the committee may 
also have questions for the record.
    Senator Dorgan. As you have already indicated, we do not 
want anyone to leave these hearings with the message that we do 
not support the underlying initiative. This is a significant 
and important initiative that I do support, an experiment that 
I think at least initial evidence suggests is beginning to work 
and one that has great merit.
    Senator Campbell. With that, I appreciate your testimony 
and apologize for having made you wait so long. You may wish to 
stay a while, though, and hear Mr. Daniel Forbes' testimony. In 
fact, if you have the time, Mr. Levitt, I would hope that you 
would stay.
    With that, we will call for his testimony Mr. Daniel 
Forbes, who is a writer that really was instrumental in 
bringing this to the committee's attention. Welcome, Mr. 
Forbes. You may proceed whenever you are ready and speak right 
into that microphone, if you would. Around here, everything you 
say is recorded, as you know.


STATEMENT OF DANIEL FORBES, FREELANCE WRITER
    Mr. Forbes. Thank you, Senator Campbell, Senator Dorgan, 
members of the committee, for this opportunity to speak this 
morning. My name is Daniel Forbes. I have been a journalist for 
over 15 years. If I could mention one accomplishment in that 
period of time, as a staff writer for the Dun and Bradstreet 
publication, Dun's Business Month, I had what was acknowledged 
to be a national scoop some many months before it occurred 
outlining the parameters of the stock market crash of 1987. 
That is just to give you some idea of my background.
    I am here to discuss the involvement of the Office of 
National Drug Control Policy in crafting and financially 
rewarding the content of network television. Since mid-January, 
the broad outlines of ONDCP's program are well known. At least 
60 articles in the nation's press and numerous broadcast news 
programs have discussed the effort in some detail.
    To reiterate briefly, a complicated program of Federal 
financial incentives rewarding anti-drug themes in some of the 
nation's most popular sit-coms and dramas was initiated in the 
spring of 1998. This followed the campaign's authorization in 
the fall of 1997. During the course of the 1998-1999 television 
season, ONDCP financially endorsed the anti-drug motifs 
contained in specific episodes of at least a score of shows.
    Such programs as ``ER,'' ``Chicago Hope,'' ``Beverly Hills 
90210,'' ``The Drew Carey Show,'' and ``Smart Guy'' freed up 
advertising time that the broadcasters owed to ONDCP. The 
network involved was then afforded the opportunity, should it 
choose, to sell that advertising time at full price to private 
clients--Wendy's, Ford, IBM, whoever. My initial estimates, as 
published in Salon.com, valued the financial value of this 
program at nearly $25 million. ONDCP confirms it at just under 
$22 million.
    This morning, I would like to address two points that have 
surfaced since publication. They are the full disclosure to 
Congress and the contention that there was no alteration of 
scripts. Let me address those two points, if I may.
    The contention that there was full disclosure to Congress, 
as more than one government official has described it in the 
past few weeks, is laid to its deserved final rest, or should 
be, at any rate, by one specific fact stated to me by the 
Congressman himself. The House member most charged with 
financial oversight of the paid media campaign--this is on the 
House side--Representative Jim Kolbe, Republican of Arizona, is 
chair of the House Appropriations Subcommittee that cuts 
ONDCP's checks. He had no knowledge of the financial quid pro 
quo with Hollywood until I approached first his staff and then 
Representative Kolbe himself this past summer seeking comment. 
He told me then, quote, ``I was not aware of the financial 
exchange.''
    Representative Kolbe's lack of knowledge was shared until 
this fall by Representative Rob Portman, Republican of Ohio. He 
is acknowledged by Capitol Hill staffers as the paid media 
campaign's main catalyst. This characterization of 
Representative Portman's lack of knowledge was told to me by 
his ex-chief of staff, John Bridgeland.
    This lack of knowledge, there is no wonder, given the 
statements ONDCP has made to Congress. One important appearance 
is Director General Barry R. McCaffrey's annual appropriations 
appearances. General McCaffrey made identical statements 
regarding ONDCP's fiscal year 2000 budget request this past 
March before subcommittees of House and Senate Appropriation 
Committees. General McCaffrey can be quite definitive, even to 
the point of specifying the paid advertisement's 11 languages.
    According to ONDCP's own Website, General McCaffrey in 
March mentioned the paid and matching ads and, quote, ``news 
and public affairs programming'' in straightforward fashion. 
But then he resorted to a marvelous phrase, quote, 
``entertainment venues.'' That is apparently his description of 
programming content in sit-coms and dramas, entertainment 
venues. Then General McCaffrey referred to the fact that the 
media are, quote, ``are matching paid advertisements with other 
ads'' and ``pro bono programming content''--pro bono 
programming content.
    That phrase bears discussion. It no doubt appeals to the 
members of Congress, but anyone hearing that phrase might 
think, aha, that refers to a lawyer representing an indigent 
client or something of that sort. In this case, however, pro 
bono refers to programming, television content that recoups 
through a complicated financial formula money lost in selling 
advertising at half price. That is something quite less than a 
donation.
    Then General McCaffrey's discussion this past March of the 
topics covered in the matching ads follows, plus mention of 
partnerships of local groups, corporations, et cetera, thus 
removed from any sentence containing a dollar sign, from any 
mention of finance. So removed from financial matters and 
insulated, in my view, from understanding comes mention of 30 
television programs focused on themes and messages supportive 
of the campaign. That is a quote. And this past March, that was 
it--no mention of financial incentives, no mention of any quid 
pro quo.
    General McCaffrey appeared before the House before 
Representative Kolbe's subcommittee a couple of weeks later in 
March of 1999, this time offering, quote, ``testimony,'' 
referred to as a report to the nation, specifically and solely 
about the media campaign. In 21 single-spaced pages, as I 
printed it out, surely there was room to delineate how the 
embedded messages work. The enabling legislation, after all, 
required, quote, ``that the Director shall report specific 
parameters of the National Media Campaign,'' but there is no 
mention of any financial incentives, a rather large parameter.
    In that late March appearance, General McCaffrey did state, 
quote, ``for every taxpayer dollar we spend, we require an 
equal added dollar's worth of anti-drug public service pro bono 
activity.'' There is that phrase again, here italicized by 
ONDCP itself, and redundantly combined with the phrase ``public 
service'' to swamp the understanding of even the most diligent 
member of Congress. By any common understanding, the phrase 
``public service pro bono,'' certainly conjoined as here, adds 
up to only one meaning, a freely-given donation.
    Okay. Then there is mention of the 32 network television 
episodes that have included the campaign's strategic anti-drug 
message points, but there the subject is dropped. No mention of 
financial incentives or quid pro quo, though the detailed 
testimony I am discussing continues for many thousand more 
words. My printed statement details other examples of this sort 
of statement before Congress.
    Not surprisingly, this obscurantist testimony has left 
Congress in the dark. I spoke to several Capitol Hill staffers, 
legislative professionals who told me in my role as a 
journalist, they doubted members of Congress who oversaw the 
paid media campaign were aware that programming content would 
come under Government sway as it has.
    Again, Representative Kolbe, probably the House member most 
charged with financial oversight, did not know, and correct me 
if I am misquoting, Senator Campbell and Senator Dorgan, but I 
believe they have stated this morning that they also did not 
know.
    Let me skip here. Funding for the annually authorized 
campaign's second year was contained in a huge omnibus spending 
bill passed in the fall of 1998. It was buried to a large 
degree in this rushed 4,000-page piece of legislation that few 
members had time to scrutinize carefully. Quote, ``these issues 
were not revisited in depth in fiscal year 1999,'' says one 
senior Capitol Hill participant.
    For his part, Representative Kolbe, speaking of this second 
year's financial authorization, maintains that the second year 
funding, quote, ``received appropriate attention,'' but he 
added, the second time around, financial incentives, quote, 
``did not come up as an issue. There was no suggestion that 
this was happening.'' So during funding of the second year of a 
projected 5-year campaign, that is 40 percent into completion 
of this 5-year campaign, there was no suggestion of what was 
really going on, said this member of Congress.
    Eventually, a Congressional hearing was held this past 
October 21, 1999, a hearing engendered, says Representative 
Kolbe, by a reporter's questions. He told me that, basically, 
my request for an interview and my disclosure to him caused 
this hearing to occur.
    In 13 pages of what is referred to as General McCaffrey's 
statement in the title and testimony in the heading of each 
subsequent page, there is but a single paragraph on the matter 
at hand, one paragraph. Anyone already aware of the deal and 
paying very close attention to this 11th of 13 pages might 
indeed parse these 212 odd words into a discussion of money 
being exchanged for programming, but apparently few did and 
none came forward. This skimpy paragraph makes a feint at 
disclosure, but soon dissolves into discussion of the numerical 
formula for valuing programming. Including arithmetic and 
everything, this formula provided some shelter to ONDCP from 
the storm it knew was coming.
    That is because this summer, in fact, four pages of 
questions to ONDCP's Alan Levitt, these questions given in 
advance as a condition for my interviewing Mr. Levitt, I had 
fully delineated how this numerical formula worked. ONDCP knew 
it was coming out eventually and threw this as a bone to 
Congress. I do not have proof of that. That is what my common 
sense tells me.
    After the General's appearance before Representative 
Kolbe's subcommittee that October, the General was in the 
morning, that afternoon was reserved for five independent 
witnesses. They ran the gamut from A perhaps to B. Three were 
Disney employees, employees of the Walt Disney Company, 
undoubtedly eager to speak truth to power, employees of a 
company participating in and potentially financially 
benefitting from the subject of the hearing. The fourth of five 
people making statements that afternoon was a paid ONDCP 
consultant, a consultant on the ONDCP payroll. The fifth was a 
Federal executive branch drug policy expert who works closely 
with ONDCP. I will leave you to draw your conclusions about 
that hearing. The one creative type, a Walt Disney Company 
employee, works in animation. He presumably has little or no 
dealings with live-action sit-coms or dramas, which were the 
sort of television programs subject to ONDCP influence.
    If I may, quickly, to move to my second topic, and I will 
address it in less time, a second canard that should be laid to 
rest is the contention flung about in recent days that 
television scripts were not altered at Government request. 
ONDCP uses phrases, phrases not lightly chosen, to indicate it 
did not have the absolute final say-so over the shows it 
granted financial dispensation, and indeed, as my article 
stated, it did not have the final say-so. It just had, by its 
own reckoning, a $22 million carrot held brightly aloft.
    Having to say something, anything since this news broke, 
ONDCP resorts to such circumlocutions as its statement of 
January 15, that, quote, ``ONDCP does not veto, clear, or 
otherwise dictate the content of network television or other 
programs.'' Examine if you would, please, the diction here. 
Those three verbs assembled are as random as railroad tracks 
across a prairie. The Salon.com articles made it clear that at 
any time, the networks could indeed tell ONDCP to take a hike 
and thus forego the opportunity to earn what was typically more 
or less a half-a-million dollars extra a show, the opportunity 
should the networks choose to pursue it.
    Indeed, ONDCP did not ``veto'' or ``clear'' or ``otherwise 
dictate'' the content of any shows. Waving a multi-million-
dollar carrot under the noses of the television networks, there 
was absolutely no need for thumbs-up or thumbs-down dictates. 
In the strictest sense of those three verbs used in the 
statement of January 15, the statement is correct, and as we 
say where I come from, that and $1.50 will get you on the 
subway.
    On January 14, ONDCP Deputy Director Donald R. Vereen said, 
according to press reports, quote, ``We do not approve scripts. 
We do not alter them.'' Again, in the strictest sense of the 
verb ``approve,'' he is perhaps correct. As to his second 
statement regarding alteration, I believe there is not much 
there.
    Published on January 13, an article entitled ``Washington 
Script Doctors'' in Salon.com, quoted both ONDCP consultants by 
name and the show's executive producers on the Government 
alterations that occurred in an episode of the Warner Brothers 
show ``Smart Guy.'' It involved a previously rejected script 
that was resurrected for the financial incentive program. That 
was told to me by the writer of the show, Mr. Steven Young. 
ONDCP and its consultants offered, quote, ``a few dictates,'' 
said the show's executive producer, Bob Young, no relation to 
Steven Young.
    One ONDCP consultant who worked on the script and whose 
quotes were independently verified by a separate journalist and 
verified by my editors, this ONDCP consultant noted that the 
substance abusing young teenagers in ``Smart Guy'' were 
transformed from appealing characters with young ladies sort of 
flocking around them. That was in the original script. They 
were changed to losers at ONDCP's behest. This consultant, who 
was on the ONDCP's payroll, stated to me, quote, ``We showed 
that they were losers and put them in a utility room rather 
than out in the main party. That was not in the original 
script.''
    ONDCP's involvement in this show is underscored by Alan 
Levitt's own e-mail sent out last May, which alerted recipients 
of this e-mail to the show's airing a couple of days hence. 
This e-mail read, in part, ``For your information, CWB's `Smart 
Guy' episode on underage drinking, we worked a lot on that 
script.'' That is the e-mail from Mr. Levitt.
    Parenthetically, some 8 percent of the programming content 
that is valued by ONDCP focused on underage drinking rather 
than drugs. This show was one of that 8 percent.
    So no force of law underscored the script doctoring. 
Rather, the at least implicit threat applied that should 
network resolve to maintain their basic integrity stiffen and 
the paying client, that being ONDCP, got too upset as a result, 
that paying client just might value a specific episode for less 
money. There was a formula that applied and the valuation 
process was controlled entirely by ONDCP and its two ad buyers, 
first Zenith Media USA and then Ogilvy and Mather Worldwide. 
Given this valuation process, the possibility existed, for what 
is the point of such an exercise if more than one outcome is 
not possible. So the possibility existed that an uncooperative 
network might recoup less ad time as measured in dollars to 
potentially resell to other clients.
    It was all done collegially, nothing at stake but 
potentially hundreds of thousands of dollars per episode. There 
was also full understanding that should ONDCP be disappointed 
in results following the one-year contract, they could take 
their ad budget elsewhere, to either other networks within 
television or other media outlets, the Internet, billboards, et 
cetera.
    Of the collegial process, in some cases, both parties to 
the transaction wrangled over any script changes initiated by 
ONDCP. Said one ONDCP consultant, ``Script changes would be 
discussed between ONDCP and the show, negotiated.'' That is a 
different person than the gentleman I quoted before. 
Apparently, it was something akin to the process by which a 
reporter and an editor negotiate over the final outcome.
    Reaching conclusion here, another ONDCP consultant asserted 
that Mr. Levitt and his deputy helped review scripts. He 
stated, quote, ``You see a lot of give and take. Here is the 
script. What do you think?'' Much initial work was done during 
a script's development stage, he said, when it was still 
aborning, and then when a final script appeared, it was, quote, 
``rush, rush,'' with a turnaround time of a week or so. He 
added, quote, ``I helped out on a number of scripts. They ran 
the scripts past us and we gave comments. We would say, it is 
great you are doing this, but inadvertently, you are conveying 
something off-message.'' And then this ONDCP consultant would 
suggest changes to suit the program's paradigm.
    This past summer, a news corporation executive told me on 
the record there were ongoing discussions--the news corporation 
owns what is commonly known as the Fox Broadcasting. This 
executive told me, quote, ``there were ongoing discussions with 
Zenith Media, the ONDCP ad buyer. They looked at each episode 
and how prevalent the story line was.'' This person added, 
quote, ``We show ONDCP scripts when they are in development and 
then the final script and then send a tape after it airs.''
    I am reaching my close here. Rosalyn Weinman, NBC Executive 
VP for Content Policy, East Coast Entertainment, maintains that 
ONDCP did not exercise, quote, ``strict approval,'' and 
semantically speaking, Ms. Weinman is technically correct. In 
the strictest sense of the term ``approval,'' it was not. NBC 
could always walk away. But, she added, ``there were 
conversations, either about broad issues or, quote, `specific 
concerns.' Either ONDCP approved, in which case the episode 
qualified,'' said Ms. Weinman, ``or the Government could say, 
quote, `It is not working for us.' And then the availability, 
should the Government say that, of a lot of money went up in 
smoke.'' I wonder how often it happened.
    Then in my record, I quote a couple of other NBC executives 
who I named involved in the back-and-forth over scripts.
    Incidentally, I interviewed at least 20 Hollywood senior 
creative types, both within individual shows and within 
production studios. Of those 20 or more, only one had any 
inkling of the financial incentives that accrued for 
programming. The rest were plainly astonished at my disclosure 
to them.
    Two points that were discussed this morning. The 
announcement after the show that we saw on the ``Cosby'' there 
indeed did occur, but it was very infrequent. Such 
announcements, by my count, occurred perhaps on three or four 
of the couple of dozen shows involved. On the others, there was 
no announcement.
    A second point, somehow, it was raised, two shows that I 
spoke to the executive producers and the writers, the ``Smart 
Guy'' show on the WB that I mentioned and an episode of 
``Chicago Hope.'' Both scripts were previously rejected, 
sitting on the shelf for a year or more. They were dusted off 
the shelf and resurrected specifically to fit into this 
financial campaign.
    I appreciate your attention and thank you very much.
    Senator Campbell. Mr. Forbes, thank you for that very, very 
complete testimony. Let me ask you a couple of questions. As I 
understand your testimony, you have written, the arrangements 
between the White House and the TV networks may have violated 
the so-called payola laws. Is that my understanding?
    Mr. Forbes. Well, that is what I understood. I spoke to two 
or three or perhaps four lawyers who practice communications 
law here in Washington and they seem fairly clear that it 
violated the payola statute requiring notice. The FCC, for its 
part, I approached them formally. They said that in the absence 
of anyone bringing a complaint, they could not comment one way 
or the other.
    Senator Campbell. I read from U.S.C. 21, Sections 1801 to 
1804 when I first started out. Have you read those, by any 
chance.
    Mr. Forbes. I have read Section 417. I do not know if I 
have read that particular code.
    Senator Campbell. Well, if you have not, I am not an 
attorney--I was going to get your take on whether you think 
they violated the spirit of the law, if not the law itself, but 
if you have not read that, I will not worry about that.
    But let me ask you this. Do you believe the ONDCP--in fact, 
you mentioned a carrot, I believe was the word you used, that 
they do offer some subtle kinds of influence to change the 
scripts?
    Mr. Forbes. I do not believe there is anything subtle about 
it. There are conference calls. There might be reaction to two 
or three separate drafts of a script in terms of actual thought 
points. That is my understanding from what participants told 
me.
    Senator Campbell. Do you know of any other incidents in the 
past where the administration, any part of the administration, 
was involved in content of programming?
    Mr. Forbes. Two things come to mind, neither of which fits 
your parameter. One would be the content of the movies during 
wartime. The second thing, far removed from any Government 
influence but I will just mention it for context, the 
designated driver campaign was inaugurated by a Harvard Public 
Health School professor well known in his field, Professor Jay 
Winston. It involved no financial incentives. It was basically 
just his approach, employing moral suasion, using the bully 
pulpit of Harvard as his platform to say, hey, folks, could you 
put in mention of the designated driver? There was no 
involvement of Government. There was no financial quid pro quo. 
In terms of a financial quid pro quo, I am not aware of any 
prior to this.
    Senator Campbell. I am a big supporter of the free 
enterprise system, but I do not believe we have an obligation 
to increase the network's bottom line, and I very definitely 
believe that we were not in the loop. I cannot find anything in 
recordings or any printed information that would make me 
believe that we knew about this, contrary to what the summary 
of the ONDCP is, and you mentioned yourself, Congressman 
Kolbe's statements. Did you have any conversation with 
Congressman Hoyer, who is the ranking minority on that same 
committee? Did he know anything about it?
    Mr. Forbes. I approached Representative Hoyer's office 
formally requesting comment and his office declined comment.
    Senator Campbell. I understand. I have no further 
questions, but I do appreciate that very extensive testimony.
    Mr. Forbes. Thank you, sir.
    Senator Campbell. Senator Dorgan?
    Senator Dorgan. Mr. Forbes, do you think that there are 
conditions under which credits can be given for shows that have 
content that is part and parcel of the objectives of the Drug 
Control Office without there being questions raised about 
censorship and so on and so forth? I have read all of the 
things you have written and you are a good writer. You have 
done a lot of investigation here. I think what I seem to be 
seeing you say in your pieces, without saying it so directly, 
is you cannot have a series of credits here without there being 
such significant questions raised that it is probably an 
unworthy thing to do.
    Mr. Forbes. Senator, I am a reporter, not a columnist. My 
personal views are of no consequence. I will say that the 
program that I described, I believe a priori raises some 
questions that the American people and their representatives in 
Congress perhaps should address.
    Senator Dorgan. The point you make is a fair one, but the 
way that you reported it led me to believe you had a view, 
which is the reason I asked the question. But the description 
you have given of the relationship that developed with respect 
to scripts describes a circumstance that suggests there has 
been more analysis of scripts than the Office of Drug Policy 
indicated there was, is that accurate?
    Mr. Forbes. I believe that is a good summary, sir.
    Senator Dorgan. You have heard the description this morning 
of the folks from the Office of Drug Policy saying, if that is 
the case, if either the perception or the reality exists that 
that was the case or was happening, then we are going to make 
sure it does not happen again, and they have established 
procedures to respond to that. Your reaction?
    Mr. Forbes. Well, I will quote just a lead editorial in the 
Washington Post of a week or so ago, something to the effect, 
we did not do it, and what is more, we are not going to do it 
again. That was the characterization on the editorial page of 
the Washington Post.
    Senator Dorgan. Mr. Forbes, I indicated at the start of 
this that, having been in politics for some while, that that 
which is written is not always true, but there is a great deal 
of public service performed by investigative reporting and I 
appreciate your willingness to come today and share your 
thoughts with us.
    I would say again at the end of this that I was not aware 
as a member of the committee, I think you indicated today that 
you were not aware, that we had a circumstance where specific 
credits were given because of program content. I think it 
raises important questions, questions that do not go to the 
question of whether we should abandon this campaign. This 
campaign is an experiment that I think is a good experiment and 
one we should continue. But I think you have done a service by 
appearing here today and we appreciate that very much.
    Mr. Forbes. Thank you, sir. May I make a statement in 
reaction to what you just said?
    Senator Dorgan. Yes.
    Mr. Forbes. From my reading of the public health 
literature, there is no question that embedded messages, as 
they are known, are far more effective than any paid 
advertisement. Any teenager, even the slickest ad, what is 
known as a defensive screen, will rise to greet an 
advertisement. But seeing behavior modeled by a favorite 
character in a TV show, that is a far more effective way to 
inculcate ONDCP's message.
    My last point. That message, such as was demonstrated in 
the clips shown here today, ``Home Improvement,'' ``Cosby,'' 
and the like, is fairly benign, and other iterations of that 
message raise some questions. For instance, on a ``Seventh 
Heaven'' program that I believe qualified as a match, the hero 
of that show is a minister. He counseled during a formal 
counseling session, as portrayed in the show, he counseled 
parents to advocate that their child become an undercover narc 
in his school. I believe that counted as a match.
    A second last example. The ``Chicago Hope'' script that was 
resurrected precisely to fit in the financial incentive program 
involved teenagers at one of these all-night raves. The result 
of that, which certainly is a possibility, but this is the 
message that is being sent to voters, the result in that show 
was an overdose death, a rape, a psychotic episode, a mangling 
car crash, a broken nose, and a doctor saying that she would 
withhold life-saving surgery unless a criminally-telling urine 
test was taken. So that is also some of the messages that are 
being portrayed here.
    And by ONDCP's own count, far more message impressions are 
going to adults than are going to children--that is right off 
their Website--adults who are voters, adults who are deciding 
issues involving the regulation of drugs, police budgets, and 
the like in this country. I leave that as something for you 
folks to consider.
    Senator Dorgan. Mr. Forbes, I am a little conflicted by 
this because I support legislation, for example, that would 
have the FCC say to television networks, there are certain 
hours of the day when you are showing programs that are 
considered family viewing hours and you shall reduce the 
quantity of violence in your programming because we believe 
children are watching then and it is inappropriate to be 
deluging children with this excessive violence. I happen to 
believe that is perfectly appropriate. It would be a stated 
public policy that these children's or family viewing hours 
would not have programming that contains excessive violence. I 
have always supported that.
    So on the one hand, I say I deliberately and aggressively 
support policy that we would decide as a country and as a 
Congress that here is what we want to have as a television fare 
that would not injure our children. On the other hand, you are 
raising the question of a procedure by which a network could 
earn financial credits, in effect, for certain programming 
content.
    Does that raise some troublesome issues? Yes, I think it 
does. Would I be disappointed if television programming were 
better, were providing better messages? No. I think that would 
be a good thing for our country. But in the process of that, if 
there is some government agency that is describing a system of 
incentives by which programming content gets changed, I think 
that raises significant questions.
    So, I understand the point you have made. I think that the 
people who have come today who are deeply involved in this 
experiment that we have are people that want to do good. They 
are managing a program that is being done for the first time. 
But I think that what we have discussed today is an area that 
needs further evaluation and further discussion with respect to 
program content and with respect to the incentives that are 
involved in that content. Certainly, as a result of this public 
discussion, we have had testimony today from ONDCP that they 
have changed their procedure so that if there were scripts 
being reviewed, that will not happen again and so on and so 
forth.
    So all of this, I think, is useful because we need to 
understand exactly what is being done with this and whether it 
meets the test of what Congress intended to be done. Thank you, 
Mr. Forbes.
    Mr. Forbes. Thank you, sir.
    Senator Campbell. Well, there are a lot of questions that 
Senator Dorgan alluded to that are probably not in the purview 
of this committee to get involved in, but I was thinking at the 
time when you were talking, Senator, you know, some of the 
programs and some of the movies we see, I mean, it is just, as 
you mentioned, just full of maiming and killing and blowing 
things up and all that stuff, and yet the person that is 
involved in it is portrayed as the hero. The Rambo series is an 
example, fighting against the establishment and oppression of 
government and all that business and the way to get even is to 
blow them all up.
    If a youngster watches that and you have 3 hours of that 
program in which this anti-hero is certainly having an impact 
on that youngster and you put in a little 30-second message 
about not doing that, what would you think would have the most 
influence on that youngster? It would seem to me that the 3 
hours of constant bombardment of this hero's way of dealing 
with injustice, rather than the 30-second subliminal message 
about why you should not maim, kill, blow up, and so on.
    I know that is a broad question, you do not even have to 
answer it, but I have my own thoughts about it and I think it 
is probably an area of diminishing returns. I think we probably 
would not get the effectiveness that some people think we would 
by putting a 30-second spot in there.
    But there is no question in my mind, after hearing the 
testimony, reviewing all the written things, that contrary to 
what the summary of the ONDCP has written and turned in, they 
did not have the legislative authority to enter into these 
agreements--I do not believe they did--and that they, in fact, 
skirted the relationship that they have with this committee 
after we have gone to bat with them time after time after time.
    In fact, I think they are rather on thin ice in dealing 
with the creative content of programs, as you mentioned the 
carrot and stick approach. When you talk about having a budget 
of $500 million over a period of years and each line could be 
worth hundreds of thousands, or each episode could, I think 
that is a big thing. That can be a very big incentive in 
influencing what is in that content. Whether they do it with 
intent or not, it certainly is a subtle way of influencing it.
    And so I think they really have set a rather dangerous 
precedent. I do not know what other agencies could also use the 
same kind of thinking or could do the same thing to get their 
message across.
    Mr. Forbes. May I address that, sir?
    Senator Campbell. Yes, please do.
    Mr. Forbes. I interviewed an ONDCP consultant, Mediascope, 
one of their subcontractors. The person there told me if this 
paradigm proved effective with drugs, that she saw no reason 
why it could not address teenage sexuality in the somewhat near 
future.
    Senator Campbell. Well, then that is clearly a dangerous 
precedent, I think, particularly when it is not done in the 
light of day, not done with Congressional approval, not done 
with Congressional oversight, and, in fact, the people that are 
elected to try to make the decisions and appropriate the money 
are just pretty much in the dark about what is going on.
    Mr. Forbes, I thank you for your testimony.
    [The statement follows:]

                  Prepared Statement of Daniel Forbes

    I'm here to discuss the involvement of the Office of National Drug 
Control Policy in crafting and financially rewarding the content of 
network television. Since mid-January, the broad outlines of ONDCP's 
program are well known. At least sixty articles in the nation's press 
and numerous broadcast news programs have discussed the effort in some 
detail.
    To reiterate briefly, a complicated program of federal financial 
incentives rewarding anti-drug themes in some of the nation's most 
popular sitcoms and dramas was initiated in the spring of 1998. During 
the course of the 1998-99 television season, ONDCP financially endorsed 
the anti-drug motifs contained in specific episodes of at least a score 
of shows. Such programs as ``ER,'' ``Chicago Hope,'' ``Beverly Hills 
90210,'' ``The Drew Carey Show'' and ``Smart Guy,'' freed-up 
advertising time that the broadcaster owed ONDCP. The network was then 
afforded the opportunity, should it chose, to sell that advertising 
time at full price to private companies. My initial estimates, as 
published in Salon.com, valued the program at nearly $25 million; ONDCP 
confirms the figure at $22 million.
    I would like to address two points, both rather easily exploded: 
the assertion that there was full disclosure of the financial incentive 
program to Congress and, secondly, the assertion that there was no 
government altering of scripts.
    The contention that there was `full disclosure' to Congress (as 
more than one government official has described it in the past few 
weeks) is laid to its deserved final rest--or should be, at any rate--
by one specific fact, stated to me by the Congressman himself. The 
House member most charged with financial oversight of the paid media 
campaign, Rep. Jim Kolbe (R-AZ), chair of the House Appropriations 
subcommittee that cuts ONDCP's checks, had no knowledge of the 
financial quid pro quo with Hollywood until I approached his staff and 
then Rep. Kolbe himself this past summer. He stated then, ``I was not 
aware of the financial exchange.'' Rep. Kolbe's lack of knowledge was 
shared, until this fall, by Rep. Rob Portman (R-OH), the paid media 
campaign's acknowledged Congressional catalyst. Or so I was told by 
Rep. Portman's ex-chief of staff. What's more, as I have heard here 
this morning, Sen. Campbell is apparently also in the same boat.
    And it's no wonder, given the statements ONDCP has made to 
Congress.
    One important appearance is ONDCP director Gen. Barry R. 
McCaffrey's annual appropriations appearances. Gen. McCaffrey made 
identical statements regarding ONDCP's fiscal year 2000 budget requests 
this past March before subcommittees of the House and Senate 
Appropriations Committees. Gen. McCaffrey can be quite definitive, even 
to the point of specifying the paid advertisements' eleven languages. 
According to ONDCP's own web site, Gen. McCaffrey mentioned the paid 
and matching ads, and ``news, [and] public-affairs programming'' in 
straightforward fashion.
    But then he resorted to a marvelously disingenuous phrase: 
``entertainment venues''--apparently Gen. McCaffrey's description of 
programming content in sitcoms and dramas. Then Gen. McCaffrey referred 
to the fact that the media ``are matching paid advertisements'' with 
other ads ``and pro-bono programming content. . . . In the past year, 
we received $165 million in free public service announcement spots and 
$40 million in corporate contributions.''
    It's unclear whether ``programming content''--which received 
monetary valuations specific to each show and so can be tallied up for 
inclusion in one of these figures--is included in the $165 million, the 
$40 million or not at all.
    The phrase, ``pro-bono programming content'' bears discussion. It 
no doubt appealed to the members of Congress. But the popular 
understanding of pro bono regards donated services. (Most people might 
think of something akin to a lawyer representing an indigent client for 
free.) Here, however, `pro bono' refers to programming that recoups, 
through a complicated financial formula, money lost in selling 
advertising at half-price. That's something quite less than a donation.
    Then Gen. McCaffrey's discussion of the topics covered in the 
matching ads follows, plus mention of partnerships with local groups 
and corporations, etc. Thus removed from any sentences containing a 
dollar-sign--removed from crass financial matters and insulated from 
understanding--comes mention of ``thirty television programs focused on 
themes and messages supportive of the campaign.'' And that's it, no 
mention of financial incentives, no mention of any quid pro quo.
    Gen. McCaffrey appeared before the House a couple of weeks later 
this past March, this time offering ``Testimony'' referred to as ``A 
Report to the Nation'' specifically and solely about the media 
campaign. In 21 single-spaced pages, surely there was room to delineate 
how the embedded messages work. The enabling legislation, after all, 
required ``That the Director shall report to Congress quarterly on the 
obligation of funds as well as the specific parameters of the national 
media campaign. . . .'' But there's no mention of any financial 
incentives--a rather large parameter.
    Gen. McCaffrey did state: ``. . . for every taxpayer dollar we 
spend, we require an equal added dollar's worth of anti-drug public 
service, pro bono activity.'' There's that dissembling phrase again, 
here italicized by ONDCP itself and redundantly combined with `public 
service' to swamp the understanding of even the most diligent member of 
Congress.
    By any common understanding, the phrase ``public service, pro 
bono''--certainly conjoined as here--adds up to only one meaning: a 
freely-given donation. So, Gen. McCaffrey's ``activity'' pulls off the 
neat trick of being ``require[d]'' and donated all at once.
    Then there's mention of the 32 network television ``episodes'' that 
``have included the Campaign's strategic anti-drug message points.'' 
But there the subject is dropped--though this detailed testimony 
entails many thousand more words.
    During this March, 1999 appearance, Gen. McCaffrey also stated, 
``Every activity undertaken by the Campaign is rooted in two key 
documents that provide the framework for all our efforts, namely: the 
Campaign's Communication Strategy and the Campaign's Integrated 
Communication Plan (respectively attachments A and B to this 
testimony).''
    The Strategy, attachment A, is widely available. At my request, 
Congressional staffers searched unsuccessfully for the ``Plan,'' the 
promised attachment B, which Gen. McCaffrey stated ``provides coherence 
to the more specific tactical efforts the Campaign is undertaking. . . 
.'' Simple failure to locate it means little; there's a lot of paper 
floating around Capitol Hill.
    Needing it for the official record, a Congressional aid requested 
it from ONDCP legislative affairs staffer Kevin Chicetti. Mr. Chicetti 
refused, saying the ``Plan'' was ```very very old''' and no longer 
relevant. Maybe a simple oversight, sure. But given all the other 
misdirection, it raises an eyebrow when the director's testimony refers 
to an unattached attachment that somehow ``provide[s] the framework for 
all our efforts'' and yet is also old and non-relevant.
    I later obtained a copy of the ``Integrated Communication Plan,'' 
dated April 20, 1998--about the same time frame Attachment A, the other 
key document, was generated. Perhaps one reason the ``Plan'' is now 
kept under wraps is that the programming content it refers to is, ``. . 
. one or more television anti-drug `specials' appealing to youth and 
another for parents may be generated and produced as part of the public 
service contributions [sic] from paid media advertising partners. . . 
.'' These specials would involve ``An extensive national outreach 
effort . . . in communities around the country.''
    That has nothing to do with embedded messages in regularly-
scheduled sitcoms and dramas. The fact that embedded messages are 
what's actually occurring, rather than any treacly `specials' of 
dubious appeal to youth or their parents, may be one reason Attachment 
B has been ignominiously retired.
    Not surprisingly, this obscurantist `testimony' has left Congress 
in the dark. Several Washington legislative professionals told me they 
doubted members of Congress who oversaw the paid media campaign were 
aware that programming content would come under government sway as it 
has. Again, Rep. Kolbe, probably the House member most charged with 
financial oversight, did not know.
    Rep. Rob Portman (R-OH) was co-chair, along with current Speaker, 
J. Dennis Hastert, of Newt Gingrich's War on Drugs Task Force; Rep. 
Portman led the demand reduction effort. John Bridgeland was Rep. 
Portman's chief of staff when the campaign was devised. Over his five-
year tenure, Mr. Bridgeland says he sometimes devoted an enormous 
quarter of his time to drug policy.
    As to programming content as a match, Mr. Bridgeland says of his 
boss--the campaign's Congressional catalyst--'' Rep. Portman was not 
aware, no.'' And, until this interview, neither was Mr. Bridgeland, the 
chief of staff who helped make it happen. As involved as anyone, Mr. 
Bridgeland believes that when the paid media campaign was passed, ad 
time constituted the match; there was no thought of programming content 
doing so. ``I don't think we thought of programming content as a match 
. . . I don't remember that,'' he says. Revisiting the issue as the 
interview closed, Mr. Bridgeland says, ``Programming content as a match 
was not actively discussed. But it makes sense.''
    Regarding programming content as a match, one senior participant 
says, ``I don't think it was explicitly dictated by law. . . . At the 
time the [initial] statute was written, it was not explicit, and 
members probably didn't understand the different ways they'd do this. . 
. . I don't think members were aware of the financial incentives.''
    More recently, this source heard ``talk of content'' at the House 
hearing this past March, but it ``didn't go into the fact of the 
financial quid pro quo.'' Though the financial incentives had been in 
place for months by then, Gen. McCaffrey's testimony gave no indication 
of their existence. The use of programming as a match ``is not widely 
understood,'' this source concludes.
    Funding for the annually-authorized campaign's second year was 
contained in a huge omnibus spending bill passed in the Fall of 1998. 
It was buried, to large degree, in an enormous, rushed 4,000-page piece 
of legislation that members couldn't possibly scrutinize. Regardless of 
a bill's circumstances, subsequent appropriations are usually dissected 
less than the bill initiating a program. ``These issues were not 
revisited in depth in fiscal year 1999,'' says a senior participant.
    For his part, Rep. Kolbe maintains that the second-year funding 
``received appropriate attention.'' But he adds that, the second time 
around, financial incentives ``didn't come up as an issue. There was no 
suggestion this was happening.'' So, during funding of the second year 
of a projected five-year campaign, there was ``no suggestion'' of what 
was really going on, said the effort's self-styled ``appropriator.'' 
Forty percent of the effort accounted for, and Congress did not know.
    Eventually, a Congressional hearing was held this past October 21, 
1999, a hearing engendered, says Rep. Kolbe, by a reporter's questions. 
Asked subsequently if our conversation this summer resulted in the 
October hearing, Rep. Kolbe said, ``Absolutely. You brought this issue 
to our attention.'' (ONDCP itself confirmed this.) Tipped off, Rep. 
Kolbe by then had a handle on both the scheme's workings and 
implications. Even so, understanding proved elusive to anyone lacking 
prior knowledge.
    In thirteen pages of what's referred to as Gen. McCaffrey's 
``statement'' in the title and ``testimony'' in the heading on each 
subsequent page, there's but a single paragraph on the matter at hand. 
Anyone already aware of the deal and paying mighty close attention to 
this 11th of 13 pages on my print-out from ONDCP's web site, might 
indeed parse these 212-odd words into a discussion of money being 
exchanged for programming. But apparently few did and none came 
forward.
    The skimpy paragraph makes a feint at disclosure, but soon devolves 
into discussion of the numerical formula for valuing programming. 
Boasting arithmetic and everything, it provided a few sticks to shelter 
ONDCP from the storm it knew was coming.
    That's because, against my better judgement, this summer I had 
faxed 61 questions--including my own full description of this numerical 
formula--to ONDCP's Alan Levitt, laying all of my cards on the table as 
ONDCP's condition for interviewing him. Thus, knowing the formula was 
coming out eventually, ONDCP had nothing to lose and everything to gain 
by preemptively offering it up to Congress in October. But even with 
this formula, it wasn't easy to connect the dots all the way to the 
realization that the networks were potentially earning half-a-million 
bucks an episode for government-endorsed, embedded messages.
    After the general's appearance before Rep. Kolbe's subcommittee 
that October morning, the afternoon was reserved for five `independent' 
witnesses that ran the gamut from A maybe to B. Three were Disney 
employees undoubtedly eager to speak truth to power; employees of a 
company participating in and potentially financially benefiting from 
the subject of the hearing; a company notorious for its stranglehold on 
the smallest detail of its public persona, never mind a potentially 
explosive Congressional hearing. The fourth person appearing that 
afternoon was a consultant on the ONDCP payroll, and the fifth was a 
federal, executive branch drug policy expert who works closely with 
ONDCP.
    The one creative type, a Disney employee who Rep. Kolbe 
subsequently told me dispelled the concept of any threat to Hollywood's 
creative independence, works in animation. He presumably has little or 
no dealings with live-action sitcoms or dramas--the TV programs subject 
to ONDCP influence.
    A second canard that should be laid to rest is the contention flung 
about in recent days that television scripts weren't altered at 
government request. ONDCP uses phrases, phrases not lightly chosen in 
this semantic fandango, to indicate it did not have the absolute final 
say-so over the shows it granted financial dispensation. And indeed, as 
my articles stated, it did not. It just had, by its own reckoning, a 
$22 million carrot held brightly aloft.
    Having to say something, anything, ONDCP resorts to such 
circumlocutions as its statement of 1/15/00 that ``ONDCP does not veto, 
clear or otherwise dictate the content of network television or other 
programs.'' Examine the diction here, the verbs assembled for this 
transparent Newspeak. They're as random as railroad tracks across the 
prairie.
    The Salon.com articles made it clear that, at any time, the 
networks could tell ONDCP to take a hike and thus forgo the opportunity 
to earn an extra half-a-million dollars, more or less, a show. Indeed, 
ONDCP did not ``veto,'' etc. any shows. Waving a multi-million dollar 
carrot under the noses of the television networks, there was absolutely 
no need for thumbs-up or thumbs-down dictates. In the strictest sense 
of those three verbs, the statement is correct. And, as we say locally, 
that and a buck-fifty will get you on the subway.
    On January 14th, 2000, ONDCP deputy director Donald R. Vereen said, 
according to press reports, ``We don't approve scripts. We don't alter 
them.'' [LA DAILY NEWS January 16, 2000] Again, in the strictest sense 
of ``approve,'' he's perhaps correct.
    As to his second statement, he doesn't have a leg to stand on.
    Published in Salon.com January 13, 2000, ``Washington Script 
Doctors'' quoted both ONDCP consultants and the show's producers on 
government alteration of an episode of the WB show, ``Smart Guy.'' It 
involved a previously rejected script that was resurrected for the 
financial incentive program. ONDCP and it's consultants offered ``a few 
dictates,'' said the show's executive producer, Bob Young. One ONDCP 
consultant who worked on the script notes that the substance-abusing 
young teens were transformed from appealing characters in the original 
script to losers at ONDCP's behest. He states, ``We showed that they 
were losers and put them in a utility room [rather than out in the main 
party]. That was not in the original script.''
    ONDCP's involvement in this show is underscored by Alan Levitt's 
own e-mail sent out last May, alerting recipients to the show's airing 
a couple of days hence. It reads in part: ``FYI, See WB's Smart Guy . . 
. episode on underage drinking--we worked a lot on that script. . . .'' 
(Some 8 percent of the programming content valued by ONDCP focused on 
under-age drinking.)
    So, no force of law underscored the script doctoring. Rather, the 
at least implicit threat applied that, should network resolve to 
maintain basic integrity stiffen, and the paying client get too riled 
as a result, that client just might value a specific episode for less 
money. The valuation process was controlled entirely by ONDCP and its 
two ad buyers, first Zenith Media USA and then Ogilvy & Mather 
Worldwide. The possibility existed--for what is the point of a 
valuation exercise if more than one outcome isn't possible?--that an 
uncooperative network might recoup less ad time, as measured in 
dollars, to potentially resell to other clients.
    Rile that client with the big, five-year bushel of money too much, 
and everyone at the table knew ONDCP always had other ad-buy options at 
hand the following season, both within television and in any number of 
other media.
    It was all done collegially, nothing at stake but potentially 
hundreds of thousands of dollars per episode. A mere bagatelle, with no 
possible influence on programming to be sure. In some cases, both 
parties to the transaction wrangled over any changes initiated by 
ONDCP. Said one paid ONDCP consultant, ``Script changes would be 
discussed between ONDCP and the show--negotiated.'' To borrow from the 
world I know, it sounds similar to the interaction between an editor 
and a reporter in crafting a piece of journalism.
    Another ONDCP consultant asserted that Alan Levitt and his deputy 
helped review scripts. He stated, ``you'd see a lot of give and take: 
`Here's the script, what do you think?'' Much initial work was done 
during a script's development stage, he said. When a final script 
appeared, it was ``rush, rush'' with a turnaround time of a week or so. 
He added, ``I helped out on a number of scripts. They ran the scripts 
past us, and we gave comments. We'd say, `It's great you're doing this, 
but inadvertently you're conveying something [off-message.]'' And then 
ONDCP and its consultants would suggest changes to suit their paradigm.
    Consider this, also from ONDCP's January 15, 2000 statement: ``At 
no time during the process did ONDCP or any person or organization 
affiliated with the Media Campaign suggest changes, nor were any 
episodes or programs resubmitted for reconsideration in exchange for 
pro-bono match credit. Indeed, we have always assumed that any 
transcripts or programs submitted for public service value 
qualification were final products and not subject to further review.''
    This past summer, a News Corporation executive told me, ``There 
were on-going discussions with Zenith. They looked at each episode and 
how prevalent the story line was.'' This person added, ``We show 
[ONDCP] scripts when they're in development, and the final script and 
then send a tape after it airs.''
    The two statements taken together, the resulting cognitive 
dissonance is hard to resolve.
    Rosalyn Weinman, NBC Executive VP for content policy and East Coast 
entertainment, maintained ONDCP did not exercise ``script approval.'' 
(And, semantically speaking, Ms. Weinman is as technically correct as 
Gen. McCaffrey is: `approval' it was not.) But, she added, there were 
conversations, either about broad issues or ``specific concerns.'' 
Either ONDCP approved, in which case the episode qualified, said Ms. 
Weinman, or the government could say: ``It's not working for us.''
    And then the availability of a whole lot of money went up in smoke. 
Care to bet how often it happened?
    Marianne Gambelli, Senior VP of prime time sales at NBC, 
acknowledged NBC sent scripts to ONDCP. It wasn't necessarily ceding 
``creative control,'' she said. ``It was more like: keep everyone 
happy.'' But, she added, ``They read scripts, they approved them as 
worthy of the message and said, yes, we count it'' for inclusion in the 
financial incentive program. Kathryn Sullivan, also of NBC sales, 
agreed that, ``There were specific guidelines as to what is acceptable, 
and we discussed them'' with ONDCP and its ad buyers.
    Incidentally, during the reporting of this story, I interviewed 
some twenty or more senior Hollywood creative executives, both at 
production studios and at individual shows. Only one had any inkling of 
the financial incentives that accrued for programming content. The rest 
were astonished at my disclosure to them.
    Also, in response to comments made this morning, it should be noted 
that the announcement following a show that was included in the clip 
ONDCP showed of ``Cosby,'' was very rare. Of the dozens of shows 
involved, I'm aware of the use of such a bumper announcement at the end 
in only a couple of instances.
    Plus, for at least two shows--``Smart Guy'' and ``Chicago Hope''--
scripts previously rejected and sitting on the shelf for many months 
were taken down and resurrected to meet the requirements of the 
financial incentive program.
    Thank you, Sen. Campbell and Sen. Dorgan for your attention.

    Senator Campbell. I want to reiterate that we are still in 
big support of the so-called war on drugs and the efforts of 
the media campaign to try to reduce drug usage, but I also want 
to say, we are going to look for some very clear and concise 
ways to make the intent of Congress very clear when this year's 
appropriation bill gets finished so there will be no more 
confusion about who does what, who makes the decisions, and it 
may come in the form of fencing off money so it cannot be used 
for this kind of a program until we have more knowledge about 
it. It may just come in the form of reduced appropriations if 
we have to put money back in other programs that were denied 
money because of this program.

                         CONCLUSION OF HEARING

    But I do thank you and all the other witnesses who have 
testified today, and with that, this xubcommittee is recessed.
    [Whereupon, at 11:55 a.m., Tuesday, February 3, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
